'(

of \W fjcvVeei S*Wie5 Qj-^rV of
foe 4V VbocMn QurcoolV

USCA4 Appeal: 20-6084

Filed: 07/23/2020

Doc: 7-1

Pg: 1 of 1

Total Pages:(1 of 3)

FILED: July 23, 2020

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6084
(1:14-cr-00023-LCB-1)
(1:16-CV-00806-LCB-LPA)

UNITED STATES OF AMERICA
Plaintiff - Appellee
v.

RANDALL GRAY WEBB
Defendant - Appellant

JUDGMENT

In accordance with the decision of this court, a certificate of appealability is
denied and the appeal is dismissed.
This judgment shall take effect upon issuance of this court's mandate in
accordance with Fed. R. App. P. 41.
/s/ PATRICIA S. CONNOR. CLERK

USCA4 Appeal: 20-6084

Doc: 6

Filed: 07/23/2020

Pg:1of2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 20-6084
UNITED STATES OF AMERICA,
Plaintiff - Appellee,
v.
RANDALL GRAY WEBB,
Defendant - Appellant.

Appeal from the United States District Court for the Middle District of North Carolina, at
Greensboro. Loretta C. Biggs, District Judge. (l:14-cr-00023-LCB-l, l:16-cv-00806LCB-LPA)
Submitted: July 21, 2020
Before AGEE, DIAZ, and HARRIS, Circuit Judges.
Dismissed by unpublished per curiam opinion.
Randall Gray Webb, Appellant Pro Se.
Unpublished opinions are not binding precedent in this circuit.

Decided: July 23, 2020

USCA4 Appeal: 20-6084

Doc: 6

Filed: 07/23/2020

Pg:2of2

PER CURIAM:
Randall G. Webb seeks to appeal the district court’s order accepting the
recommendation of the magistrate judge and denying relief on Webb’s 28 U.S.C. § 2255
(2018) motion. The order is not appealable unless a circuit justice or judge issues a
certificate of appealability.

See 28 U.S.C. § 2253(c)(1)(B) (2018).

A certificate of

appealability will not issue absent “a substantial showing of the denial of a constitutional
right.” 28 U.S.C. § 2253(c)(2) (2018). When the district court denies relief on the merits,
a prisoner satisfies this standard by demonstrating that reasonable jurists could find the
district court’s assessment of the constitutional claims debatable or wrong. See Buck v.
Davis, 137 S. Ct. 759, 773-74 (2017). When the district court denies relief on procedural
grounds, the prisoner must demonstrate both that the dispositive procedural ruling is
debatable and that the motion states a debatable claim of the denial of a constitutional right.
Gonzalez v. Thaler, 565 U.S. 134, 140-41 (2012) (citing Slack v. McDaniel, 529 U.S. 473,
484 (2000)).
We have independently reviewed the record and conclude that Webb has not made
the requisite showing. Accordingly, we deny a certificate of appealability and dismiss the
appeal. We dispense with oral argument because the facts and legal contentions are
adequately presented in the materials before this court and argument would not aid the
decisional process.
DISMISSED

2

\v

& AW
Cxx\ d^tk^

(

oA-D'^v;tV

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA
RANDALL GRAY WEBB,

)

Petitioner,

)
)
)
)
)
)

v.
UNITED STATES OF AMERICA,

1:14CR23-1
1:16CV806

Respondent.
RECOMMENDATION OF UNITED STATES MAGISTRATE JUDGE
This Court (per now-retired United States District Judge James
A.

Beaty,

Jr.)

entered a Judgment against

Petitioner imposing

consecutive prison sentences of 84 and 300 months upon his guilty
plea to Counts Three and Five of his Indictment, which each charged
him with carry and use, by brandishing, a firearm, during and in
relation

to

a

crime

of

violence

in

§ 924 (c) (1) (A) (ii) ("Section 924 (c)") .
also Docket Entry 1

violation

of

18

U.S.C.

(Docket Entries 39, 77; see

(Indictment); Docket Entry'24

(Plea Agt.) .)1

Petitioner did not appeal (see Docket Entry 78, ! 8), but later did
file a Letter Motion referencing "the Johnson case/Welch case"
(Docket Entry 63 at 1).

The Court construed that Letter Motion as

collaterally challenging Petitioner's convictions based on Johnson
v.

United States,

U. S.

,

135

S.

Ct.

2551

(2015),

and,

"pursuant to the General Order Governing Claims Related to Johnson

1 Parenthetical citations
captioned federal criminal case.

refer

to

Petitioner's

Case l:14-cr-00023-LCB Document 90 Filed 11/21/19 Paae 1 of 5

above-

. . , the Office of the Federal Public Defender [wa]s appointed to
represent [Petitioner] and the [Letter M]otion [wa]s STAYED for a
period of 45 days ... to permit review by counsel" (Text Order
dated July 27,

2016) .

Following the expiration of that stay,

Petitioner (through counsel) filed a form Motion under 28 U.S.C.
§ 2255 to Vacate, Set Aside, or Correct Sentence
Motion")

("Section 2255

(Docket Entry 78) , as well as a "Motion to Accept [the

Section 2255 Motion]

as Timely Filed"

Section

lists

2255

Motion

one

(Docket Entry 79) .

"ground

on ' which

The

[Petitioner]

claim[s] that [he is] being held in violation of the Constitution,
laws, or treaties of the United States" (Docket Entry 78, 1 12):
"As a result of the decision in Johnson

.

.

.,

the predicate

offense relied upon by the government for conviction is no longer
a

'crime of violence.

SI

12 (Ground

One) (a)

f tr

(Id. ,

("Each

f 12 (Ground One) ;

count

of

conviction

see also id. ,
alleges

that

Petitioner brandished a weapon in connection with the offense of
Interference with Commerce by Threats or Violence in violation of
18 U.S.C. § 1951(a)

(Hobbs Act Robbery).

After Johnson, a Hobbs

Act Robbery is not categorically a crime of violence.").)
Subsequently,

"[i]n accordance with the Supplemental Order

entered in In re: Motions Related to Claims under Johnson .
this case [wa]s STAYED pending the decision of the Supreme Court of
the United States in Dimaya v. Lynch .
Nov. 15, 2016.)

.

//

(Text Order dated

The Court (per the undersigned Magistrate Judge)
2

Case l:14-cr-00023-LCB Document 90 Filed 11/21/19 Paae2of5

thereafter
decision[]

extended
in

.

the

stay

"pending

United States v.

the

Fourth. Circuit's

Mathis,

16-4633 (L)"

(Text

Order dated May 8, 2018; accord Text Order dated July 12, 2019), as
v
well as the Supreme Court's decision in "United States v. Davis,
No. 18-431" (Text Order dated Feb. 14, 2019) .
in

those

cases,

"request[ing]

the

parties

filed

a

Following decisions
Joint

Status

Report

that this case be released from abeyance"

(Docket

Entry 86 at 3) and the Court (per the undersigned Magistrate Judge)
granted that request (see Text Order dated Nov. 21, 2019) .
With the stay lifted, the Court should deny collateral relief.
To

begin,

convicted

as
of

set

out

Section

above
924(c)

(and

like

many

other

defendants

crime-of-violence-related' firearm

offenses), Petitioner filed the Section 2255 Motion "seeking relief
based

on

Johnson,

in

which

the

Supreme

Court

held

that

the

'residual clause', of 18 U.S.C. § 924(e) (2)'s definition of 'violent
felony'

[wa]s unconstitutionally vague," Dorsey v. United States,

No. 1:99CR203-2,
21,

2019)

omitted).

1:16CV738, 2019 WL 3947914, at *1

(unpublished)

(internal

The Section 2255 Motion

citation
(again,

and

(E.D. Va. Aug.
full

case

name

as set out above and

akin to such motions filed by many other defendants) contends that
Johnson's

reasoning

invalidates

the

similar

"residual

clause"

portion of the definition of "crime of violence" under Section
924(c) (3), such that Petitioner's "[Section]

924(c)

conviction[s]

3

Case l:14-cr-00023-LCB Document 90 Filed 11/21/19 Paae 3 of 5

should be vacated because the predicate offense no longer qualifies
as a crime of violence," id.

(internal parenthetical omitted)).

Consistent with the first premise of the Section 2255 Motion,
"[o]n June 24,

2019,

the Supreme Court held that the residual

clause of [Section] 924(c) (3)'s definition of 'crime of violence'
is also unconstitutionally vague."
Davis,

U. S .

,

Id.

(citing United States v.

139 S. Ct. 2319,

2336

(2019)).

That

holding by the Supreme Court establishes that Section 924(c)'s
residual clause "cannot be used to support
conviction.

[a Section]

924(c)

What remains is the question whether the predicate

offense underlying . . . [Petitioner's Section 924(c) convictions]
qualifies as a 'crime of violence under [Section] 924 (c)' s force
clause.

If it so qualifies,
Id. at *2.2

[those] conviction[s] remain[] valid

The Court need not solicit briefing from the

parties on that remaining question, because - as they already have
acknowledged

(see Docket Entry 86 at 2-3)

the Fourth Circuit

"[has] conclude[d] that Hobbs Act robbery constitutes a crime of
2 The Section 2255 Motion does not allege that any ambiguity
exists as to the "crime of violence" predicates for Petitioner's
Section 924(c) convictions.
(See Docket Entry 78, 1 12 (Ground
One) (a) (acknowledging that "Hobbs Act Robbery" served as predicate
for each of Petitioner's Section 924(c) convictions, but arguing
that "Hobbs Act Robbery is not categorically a crime'of violence");
see also Docket Entry 1 at 2 (charging Petitioner in Count Two with
Hobbs Act robbery corresponding to Section 924 (c) charge in Count
Three), 3-4 (charging Petitioner in Count Four with Hobbs' Act
robbery corresponding to Section 924(c) charge in Count Five);
Docket Entry 86 at 2 ("Petitioner's [Section] 924(c) conviction[s]
w[ere] . . . predicated on Hobbs Act robber[ies] . .
4

Case l:14-cr-00023-LCB Document 90 Filed 11/21/19 Paae 4 of 5

violence under the force clause of Section 924(c)," United States
v. Mathis, 932 F.3d 242, 266 (4th Cir. 2019).
Accordingly, as "it plainly appears from the [Letter Motion
and the

Section 2255 MJotion

proceedings
[Court]

that

[Petitioner]

must dismiss

M]otion

ft

Proceedings
States,

("Section

Nos.

(M.D.N.C.

is

.

.

and the

not

record of prior

entitled

to

relief,

the

the

[Letter Motion and the

Section 2255

Rule

4(b),

Section

2255

l:12CR449-2,

Sept.

.

23,

Rules

Rules");
1:16CV627,

2019)

Governing

see

also

2019

WL

(unpublished)

Lloyd v.
4600211,
("find[ing]

2255

United
at

*1

that

[analogous] claim fail[ed] on the merits" in light of Mathis) .
IT IS THEREFORE RECOMMENDED that (A)
[the Section 2255 Motion] as Timely Filed"

the "Motion to Accept
(Docket Entry 79) be

denied as moot, and (B) the Letter Motion (Docket Entry 63) and the
Section 2255 Motion
Section

2255 Rule

(Docket Entry 78)
4 (b) ,

without

be dismissed pursuant to

issuance

of a certificate of

appealability.
/s/ L. Patrick Auld
L. Patrick Auld
United States Magistrate Judge
November 21, 2019

5

Case l:14-cr-00023-LCB Document 90 Filed 11/21/19 Page 5 of 5

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA

RANDALL GRAY WEBB,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

1:16CV806
L14CR23-1

ORDER
The Recommendation of the United States Magistrate Judge was filed with the Court
in accordance with 28 U.S.C. § 636(b) and, on November 22, 2019, was served on the parties
in this action. (ECF Nos. 90, 91.) Plaintiff filed pro se objections to the Magistrate Judge’s
Recommendation.

(ECF No. 93.)

The Court has appropriately reviewed the Magistrate

Judge’s Recommendation and has made a de novo determination in accord with the Magistrate
Judge’s

Recommendation.

The

Court

therefore

adopts

the

Magistrate Judge’s

Recommendation.
IT IS THEREFORE ORDERED that that Petitioner’s Motion to Vacate, Set Aside,
or Correct Sentence under 28 U.S.C. § 2255 (ECF No. 63) and Amended Motion to Vacate,
Set Aside, or Correct Sentence under 28 U.S.C. § 2255 (ECF No. 78) are DENIED, that
Petitioner’s Motion to Accept Corrected Motion for Relief Under 28 U.S.C. § 2255 as Timely
Filed (ECF No. 79) is DENIED as moot, and that this action is dismissed with prejudice. A
Judgment dismissing this action will be entered contemporaneously with this Order.

Case l:14-cr-00023-LCB Document 96 Filed 01/02/20 Paae 1 of 2

Finding neither a substantial issue for appeal concerning the denial of a constitutional
right affecting the conviction nor a debatable procedural ruling, a certificate of appealability is
DENIED.
This, the 2nd day of January, 2020.

/s/ Loretta C. Biggs______
United States District Judge

2

Case l:14-cr-00023-LCB Document 96 Filed 01/02/20 Paae 2 of 2

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF NORTH CAROLINA

RANDALL GRAY WEBB,

)
)
)
)
)
)
)
)
)

Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

L16CV806
L14CR23-1

JUDGMENT
For the reasons set forth in the Order filed contemporaneously with this Judgment,
IT IS HEREBY ORDERED AND ADJUDGED that that Petitioner’s Motion to
Vacate, Set Aside, or Correct Sentence under 28 U.S.C. § 2255 (ECF No. 63) and Amended
Motion to Vacate, Set Aside, or Correct Sentence under 28 U.S.C. § 2255 (ECF No. 78) are
DENIED, that Petitioner’s Motion to Accept Corrected Motion for Relief Under 28 U.S.C.
§ 2255 as Timely Filed (ECF No. 79) is DENIED as moot, and that this action is dismissed
with prejudice.
Finding neither a substantial issue for appeal concerning the denial of a constitutional
right affecting the conviction nor a debatable procedural ruling, a certificate of appealability is
DENIED.
This, the 2nd day of January, 2020.

/s/ Loretta C. Biggs
United States District Judge

Case 1:14-cr-00023-LCB Document 97 Filed 01/02/20 Paae 1 of 1

c

XV

La

0 06^-4

CL
(LyAroev^

\0AV\ ..At..Pieces__Coj,

c

............._„■_________________________________ :_______________________________________________ ^_______________________________

-J

c

t

\i ygsY>S
%

l

C\

Haynes v. United States of America

E-FILEtD
Wednesday, 25 January, 2017 03:30.09 Pw1
Clerk, U.S. District Court, ILCD

IN THE
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF ILLINOIS

J

ROCK ISLAND DIVISION
STACY M. HAYNES,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)

Case No. 4:16-cv-4106

MEMORANDUM OPINION & ORDER
This matter is before the Court on the Amended Motion Under 28 U.S.C. §
2255 To Vacate, Set Aside, Or Correct Sentence (Doc. 3) filed by Stacy M. Haynes
(the “Petitioner”)

. The motion has been fully briefed and is ready for decision. For

the reasons discussed below,

the motion is GRANTED in Part and DISMISSED in

Part. Mr. Haynes will be resentenced.
I.

PRELIMINARY PROCEDURAL CONSIDERATIONS

The instant § 2255 motion (Doc. 3) is an amended successive motion.
Petitioner filed an original § 2255 motion in April 2000 that this Court heard and
1|

denied. (See Doc.1, Haynes v.

United States, No. 4:00-cv-4044 (C.D. Ill.)). Petitioners

first successive § 2255 motion (Doc. 1) only contained two claims that were

M
$

presented to the Seventh Circuit for authorization to proceed in this court.
Petitioner has since amended his first successive § 2255 motion to include two
additional claims. Since they were not presented to the Seventh Circuit panel, the

it .■

L.

Government argues that they are unauthorized claims. Paragraph (4) of subsection
1

\
Dockets.Justia.con

\
/,

/

(b) of 28 U.S.C. § 2244 clearly states that a district court shall dismiss any claim
presented in a second or successive application that the court of appeals has

{

authorized to be filed unless the applicant shows that the claim satisfies the
requirement0 nf thin «pH-.inn. Tbs term “application” is taken to refer to the habeas
relief petition itself, but in this case the term refers to the § 2255 motion. See 2-28
Federal Habeas Corpus Practice and Procedure § 28.3. Nevertheless, a convicted
prisoner is allowed to bring a successive attempt at habeas relief when such a
prisoner’s claim is based upon either a new rule of constitutional law or newly
discovered evidence. 28 U.S.C. §§ 2244(b)(4), 2255(h)(2).
— Before addressing the issue .of whether .these two additional claims are....
unauthorized, there is another ancillary issue to be decided, which is whether this
amended motion is even properly before the Court. The Amended Motion (Doc. 3)
was made without leave of Court and without the written consent of the
Government. Counsel for Petitioner was appointed in this matter pursuant to
Administrative Order 15-mc-1016 (available at http://www.ilcd.uscourts.gov/courk
infn/local-rules-and-orders/general-orders (last visited January 24, 2017)). That
- -Order does mot-state that nmendments tojhe initial mptiqn^re pre sumptively_____
allowed although one might assume that the amendment of a pro se prisoner’s
application for habeas corpus, which is what the § 2255 motion really is, would
always naturally follow the appointment of counsel. Given the significance of the
motion and the hurdles a petitioner must face if she leaves out a viable claim and
tries to bring it up later in a subsequent action, there is great peril in leaving the

2

f >

pro se petitioner a pleading to stand without the input of the attorney appointed in
the case.
But 28 U.S.C. § 2242 provides that the application for habeas corpus “may be
amended or supplemented as provided in the rules of procedure applicable to civil
actions. Rule 12 of the Rules Governing Section 2255 Proceedings for the United
States District Courts provides that the “Federal Rules of Civil Procedure and the
Federal Rules of Criminal Procedure, to the extent that they are not inconsistent
with any statutory provisions or these rules, may be applied to a proceeding under
these rules. Moreover, the Federal Rules of Civil Procedure themselves also provide
that they apply to proceedings for habeas corpus. Fed. R. Civ. P. 81(a)(4). The
Seventh Circuit has specifically held that “[t]he rules governing § 2255 do not deal
with amendments for collateral review and therefore proposed amendments to §
2255 motions are governed by Fed. R. Civ. P. 15(a).” Rodriguez v. United States, 286
F.3d 972, 980 (7th Cir. 2002); see also Mayle v. Felix, 545 U.S. 644 (2005) (holding
the same).
Rule 15(a)(1) of the Federal Rules of Civil Procedure allows a party to amend
its pleading once as a matter of course within either twenty-one days after serving
it, or if the pleading is one to which a responsive pleading is required, twenty -one
days after service of a responsive pleading or twenty-one days after service of a
motion under Rule 12(b), (e), or (f), whichever is earlier. The first successive § 2255
motion (Doc. 1) was “served” upon Respondent on June 9, 2016 at the latest, which
is when the Clerk added a specific Assistant United States Attorney to this action
despite adding the United States of America as a party on June 6, 2016 when the
3

action was opened and docketed. See Fed. R. Civ. P. 5; CDIL-LR 5.3. The Amended
Motion (Doc. 3) was not filed within twenty-one days of June 9, 2016, but rather
more than three months later on September 30, 2016.
-T)espitetfiaVRule-lfi(a)(2)-alsQ-prQyides4h.atin-all-othercases, a party..may—
amend its pleading only with the opposing party’s written consent or leave of court.
The docket does not reveal that the Government consented to the amendment and
leave of court was not sought. However, the rule provides further that the Court is
to freely give leave to amend a pleading when justice so requires. Given this
permissive standard and the unique significance of the habeas application discussed
—above, the Court finds it -would he manifestly -unfair to -disallow-the Amended---- —
Motion at this point in time, especially when the Court arguably acquiesced to the
Amended Motion by entering an order directing the Government to respond to it. In
the future though, proper leave of court should be sought. With that out of the way,
the Court now turns to the issue of whether these two additional claims are indeed
. .unauthorized .and thus not capable of being heard by this Court.

_

_____

Petitioner’s first supplemental claim that he is actually innocent of the

Seventh Circuit authorized Petitioner to move for relief for Johnson-related issues,
not this stand-alone actual legal innocence claim. Because the Court sees little
utility in forcing Petitioner to pursue this claim in a § 2241 petition in front of a
court unfamiliar with the case—the court in the district where he is in custody—-it

I

has engaged in extensive research into whether it can retain jurisdiction over the
claim. Alas, the Court, has found no applicable exceptions. This claim does not fit
4

into the exceptions carved out in §§ 2244(b) and 2255(h) because it clearly does not
rely on a new rule of constitutional law nor does it rely on newly discovered
evidence.
The Court was tempted to turn to its own inherent ability to prevent
miscarriages of justice in order to reach the claim. However, in United States v.
Williams, 790 F.3d 1059, the Tenth Circuit thoroughly and convincingly explained
why a district court lacks the authority to reach this type of unauthorized actual
innocence claim in light of the Antiterrorism and Effective Death Penalty Act of
1996, Pub. L. No. 104-132, 110 Stat. 1214 (the “AEDPA”). That court explained that
in McQuiggin v. Perkins, 133 S. Ct. 1924 (U.S. 2013)—a case where the Supreme
Court held that in extremely rare circumstances, an actual innocence claim can
overcome 28 U.S..C. § 2244(d)(l)’s one year statute of limitations—the Supreme
Court recognized that where Congress had explicitly limited petitioners to evading
certain procedural bars in certain statutory provisions of the AEDPA, “Congress
clearly intended that courts may no longer invoke their common law miscarriage of
justice authority to allow petitioners to bypass the relevant procedural bar” and the
“courts must apply the exception as modified by Congress.” 790 F.3d at 1076 citing
McQuiggin, 133 S. Ct. at 1934. The Williams court found that the AEDPA clearly
modified the common law miscarriage of justice exception by imposing a clear and
convincing burden of proof and by requiring preauthorization of successive
applications for habeas relief from the appropriate courts of appeals. Id. at 1076.
This Court finds the Williams court’s explanation to be persuasive and concludes

5

that it may not utilize the miscarriage of justice exception to reach Petitioner’s
actual innocence claim. The claim is hereby dismissed.
Petitioner’s second supplemental claim—that his robbery convictions under
484L&C,
924(c)—was also not included in the first successive § 2255 motion (Doc. 1) given to
the Seventh Circuit for authorization. However, it is clearly predicated upon
Johnson and thus the Court believes it is based upon a new rule of constitutional
law and well within the scope of the claims the Seventh Circuit authorized this
Court to reach. The Court will hear it.
■—

II.

LEGAL STANDARDS

Section 2255 of Title 28 of the United States Code provides that a sentence
may be vacated, set aside, or corrected “upon the ground that the sentence was
imposed in violation of the Constitution or laws of the United States, or that the
court was without jurisdiction to impose such sentence, or that the sentence was in
excess of the mayirrium authorized by law, or is otherwise subject to collateral__
attack.” “Relief under § 2255 is an extraordinary remedy because it asks the district
-eourt-essentially4o ^eopen-the criminal-process to_a.person who already has had an
opportunity for full process.” Almonacid v. United States, 476 F.3d 518, 521 (7th
Cir. 2007). Thus, § 2255 relief is limited to correcting errors of constitutional or
jurisdictional magnitude or errors constituting fundamental defects that result in
complete miscarriages of justice. E.g., Kelly v. United States, 29 F.3d 1107, 1112
(7th Cir. 1994), overruled on other grounds by United States v. Ceballos, 26 F.3d
717 (7th Cir. 1994). “A § 2255 motion is not a substitute for a direct appeal.”
6

Coleman v. United States, 318 F.3d 754, 760 (7th Cir. 2003) (citing Doe v. United
States, 51 F.3d 693, 698 (7th Cir. 1995)). Generally, a § 2255 motion must be filed
within one year of the date the judgment against the petitioner became final. 28
U.S.C. § 2255(f)(1); Clay v. United States, 537 U.S. 522, 527 (2003) (“Finality
attaches when this Court... denies a petition for a writ of certiorari, or when the
time for fifing a certiorari petition expires.”). However, sub-paragraph (f)(3) provides
that a § 2255 motion may be timely if it is brought within one year of the date on
which the right asserted was initially recognized by the Supreme Court, if that right
has been newly recognized by the Supreme Court and.made retroactively applicable
to cases on collateral review. 28 U.S.C. § 2255(f)(3).
III.

FACTUAL BACKGROUND

Petitioner, Stacy M. Haynes, was convicted of several crimes after
committing several armed robberies in the Quad Cities area of Iowa and Illinois in
the mid-nineties. Specifically, Petitioner was convicted of three counts of Hobbs Act
robbery in violation of 18 U.S.C. § 1951, three counts of interstate travel in aid of
racketeering in violation of 18 U.S.C. § 1952, and six counts of using and carrying a firearm in furtherance of a crime of violence under 18 U.S.C. § 924(c). The
Government timely filed a notice of intent to seek a mandatory life sentence under
18 U.S.C. § 3559(c)(1) on each of the Hobbs Act robbery counts and the interstate
travel in aid of racketeering counts. This Court found that Petitioner had the
requisite number of prior serious violent felonies because he had twice been
convicted of residential burglary in Illinois on two prior separate occasions. So it

7

sentenced him accordingly after a jury convicted him. The following table will help
keep straight what count corresponded to what offense and what sentence.
Count
1
2
3
4
5
6
81
9
10
11
12
13

Offense of Conviction
Robbery of Illinois Hy-Vee in violation of
18U.S.C. § 1951
Use of a firearm in relation to Count fin
violation of 18 U.S.C. §924(c)
Travel in Violation of 18 U.S.C. § 1952 for
robbing Eagle Food Centers in Iowa
Use of a firearm in relation to Count 3 in
violation of 18 U.S.C. §924(c)
Travel in Violation of 18 U.S.C. § 1952 for
robbing Jewel Food Store in Iowa.
Use of a firearm in relation to Count 5 in
violation of 18 U.S.C. §924(c)
Robbery of Illinois K-Mart in violation of 18
U.S.C. § 1951
Use of a firearm in relation to Count 8 in
violation of 18 U.S.C. §924(c)
Travel in Violation of 18 U.S.C. § 1952 for
robbing Venture inTowa
Use of a firearm in relation to Count 10 in
violation of 18 U.S.C. §924(c)
Robbery of Illinois Hy-Vee in violation of
18 U.S.C. § 1951
'
Use of a firearm in relation to Count 12 in
violation of 18 U.S.C. §924(c)

Sentence
Life

S 3559 Applies
Yes

5 years consccutiveto life
and each and every other
924(c) conviction
Life

No

20 years consecutive to
life and each and every
other 924(c) conviction
Life

No

20 years consecutive to
life and each and every
other 924(c) conviction
Life

No

20 years consecutive to
life and each and every
other 924(c) conviction
Life

No

20 years consecutive to
life and each and every
other 924(c) conviction
Life

No

20 years consecutive to
life and each and every
other 924(c) conviction

No

Yes

Yes

Yes

Yes

/
Yes

Years passed and then in 2015 the Supreme Court held in Johnson v. United
States, 135 S. Ct. 2551, that the residual clause of 18 U.S.C. § 924(e)(2)(B)(ii) was
void for vagueness and later held in Welch u. United States, 136 S. Ct. 1257 (U.S.
2016), that Johnson applies retroactively to cases on collateral review. Johnson
announced a new rule of constitutional law and Welch explicitly made it retroactive

i

1 In case one is curious, the jury failed to convict Petitioner of Count 7 of the
Indictment; it too was a Hobbs Act robbery charge.

8

to cases on collateral review. Johnson’s rule was not announced until June 2015 and
thus was previously unavailable to Petitioner for use in his initial § 2255 motion
filed several years ago. Since Johnson was decided, the Seventh Circuit has held
that the residual clause” of 18 U.S.C. § 16(b) is unconstitutionally vague, United
States v. Vivas-Ceja, 808 F.3d 719, 723 (7th Cir. 2015), the pre-August 1, 2016
Amendment “residual clause” of the United States Sentencing Guidelines §
4B 1.2(a)(2) was unconstitutionally vague, United States v. Hurlburt, 835 F.3d 715,
721 (7th Cir. Aug. 29, 2016), and that 18 U.S.C. § 924(c)’s “residual clause” is also
unconstitutionally vague. United States v. Gardena, 842 F.3d 959, 996 (7th Cir.
2016).
IV.
A.

DISCUSSION

18 U.S.C. § 3559(c)(1) Enhanced Mandatory Life Sentence Applied to
Counts 1, 3, 5, 8,10, and 12.
Recognizing the handwriting on the wall, Petitioner now moves to vacate his

mandatory life sentence under 18 U.S.C. § 3559(c)(1) because that statute’s
definition of the term serious violent felony” utilizes language almost identical to
language that has been held to be unconstitutionally vague. See 18 U.S.C. §
3559(c)(2)(F)(ii). The Court found that Petitioner qualified for the enhanced
sentence under 18 U.S.C. § 3559 because he had Illinois residential burglary
convictions that qualified as “serious violent felonies” but residential burglary is not
one of the enumerated offenses in 18 U.S.C. § 3559(c)(2)(F)(i). Thus, they only
qualified as “serious violent felonies” under 18 U.S.C. § 3559(c)(2)(F)(ii)’s “residual
clause”. The Government concedes that if 18 U.S.C. § 3559(c)(2)(F)(ii)’s “residual
9

clause” is found to be unconstitutional then Petitioner’s residential burglaries could
not qualify as serious violent felonies. It offers no meaningful opposition to
Petitioner’s claim as it recognizes both that the language at issue is almost identical

that the Court is bound to follow circuit precedent.2
Accordingly, the Court sees no reason to not follow circuit precedent and
therefore finds that 18 U.S.C. § 3559(c)(2)(F)(ii)’s “residual clause” is so similar to
the “residual clauses” at issue in Vivas-Ceja, Hurlburt and Cardena that this Court
is compelled to conclude that it too is unconstitutionally vague. The Court’s
application of 18 TJ^.“Cr§ '35'59(c) to'Petition:er caxmpt stand.-He'must be-

- -------

resentenced on Counts 1, 3, 5, 8, 10, and 12. The Pre-sentence Investigation Report
prepared for Petitioner calculated a total offense level of 37 and a criminal history
category of VI, which placed Petitioner in the range of 360 months to life for Counts
1, 3, 5, 8, 10, and 12.
B.

Use and Carryofa Firearm JjLUJ5LC^J924Xc)_Qf£ensesjn relation to
the Convictions for ViolatingT8U.S.C.§§T951andT952:UounLs 2, 4y~
6, 9,11, and 13.
-Potitioner’s next-claim is-that his-§-924(c).CQnvictions Jor CQunts A, 6^_and_ll,

which related to his interstate travel in support of racketeering convictions under
18 U.S.C. § 1952, must be overturned as well because of Johnson and subsequent
cases applying Johnson’s holding.

2 The Government did briefly recount the reasons it believes these precedential
cases were wrong in order to preserve the issues upon appeal. There is little reason
for this Court to discuss them as this Court cannot overrule the Seventh Circuit.
The Court notes that such objections have been made and are part of the record.
10

Section 924(c) states in relevant part that “any person who, during and in
relation to any crime of violence... uses or carries a firearm, or who, in furtherance
of any such crime, possesses a firearm, shall, in addition to the punishment
provided for such crime of violence” be subjected to some very severe penalties.
“Crime of violence” was defined as an offense that is a felony and—
(A) has as an element the use, attempted use, or threatened use of
physical force against the person or property of another, or
(B) that by its nature, involves a substantial risk that physical force
against the person or property of another may be used in the course of
committing the offense.
18 U.S.C. § 924(c)(3). Cardena held that 18 U.S.C. § 924(c)’s residual clause is
unconstitutionally vague under the principles set forth in Johnson. 842 F.3d at 996
(“we hold that the residual clause in 18 U.S.C. § 924(c)(3)(B) is also
unconstitutionally vague.”). Thus, a crime of violence under § 924(c) can only be a
felony that has as an element the use, attempted use, or threatened use of physical
force against the person or property of another.
Petitioner argues that the definition of “crime of violence” utilized in 18
U.S.C. § 1952 in his trial is the definition provided for in § 16(b) as it existed before
Johnson and Vivas-Ceja were decided and thus includes the phrase “any other
offense that is a felony and that, by its nature, involves a substantial risk that
physical force against the person or property of another may be used in the course of
committing the offense.” Petitioner argues further that the presence of this residual
clause renders it broader than the post -Johnson, post- Cardena version of § 924(c)(3)
and renders the two statutes incapable of matching up under the familiar

11

categorical approach originally espoused in Taylor v. United States, 495 U.S. 575,
600 (1990) and later elucidated in Mathis v. United States, 136 S. Ct. 2243 (2016).
^In other words, viewing the definition of crime of violence as an element of the §

because the § 1952 offense encompassed the pre-Vivas-Ceja version of §16(b).-3fcr
Therefore, the two statutes do not match up under the categorical approach as
explained by the Supreme Court in Mathis.
The Government responds that Mathis is not properly applicable to this case.
This is so because in Mathis, the court was concerned with whether a sentencing
-judge had properly-determined-whether -the defendant had qualifying convictions.—
for an enhanced sentence under 18 U.S.C. § 924(e). Whereas here, in contrast, a
jury found that Petitioner had engaged in a crime of violence under 18 U.S.C. §
924(c), the underlying offense being a Hobbs Act robbery that has the use of
physical force against a person or property as an element. Moreover, each of Counts
1, 3, 5, 8. and 10 contained language that accused Petitioner of displaying a firearm
while committing the offense.
---------The -Court-sees-no-meaningfuLdistinction between-whetherjthe__£entencing_
judge or the jury made the finding. As most recently observed in Cardena, the
categorical approach is utilized to determine whether a statute qualifies as a crime
of violence under § 924(c). 842 F.3d at 997. The categorical approach is the same
whether one is dealing with § 924(c), as here, or with § 924(e), as in Mathis. A
finding was made that resulted in a penalty being assessed against the Petitioner.

12

The only relevant inquiry is whether or not the finding was made with a proper
definition of the “crime of violence” element.
The Government explains that to convict Petitioner on the § 924(c) Counts 4,
6, and 11, the jury had to find beyond a reasonable doubt that he violated § 1952 by
travelling interstate and committing the Hobbs Act robberies alleged in Counts 3, 5,
and 10, each of which alleged that the crime of violence at issue was a “robbery” as
that term is defined in 18 U.S.C. § 1951(b)(1). (Doc. 7 at 17-18; see also United
States v. Haynes, No. 96-cr-40034, Doc. 5 at 2-4, 7).
So now, the discussion segues into Counts 3, 5, and 10 and the statutory
definition of the term “robbery.” Petitioner also claims that his § 924(c) violations in
relation to his three Hobbs Act robbery convictions under 18 U.S.C. § 1951, Counts
2, 9, and 13, must be overturned because of the voiding of the residual clause and
the fact that a Hobbs Act robbery can be accomplished without the use of physical
force. Rather than discuss them separately, the discussion will now focus on all six §
924(c) counts because in the Court’s opinion, they all ultimately hinge to varying
degree on the definition of “robbery” in 18 U.S.C. § 1951(b)(1).
The Government concedes that the Petitioner’s jury was instructed that the
robberies at issue required the taking or obtaining of property from a person “by
means of actual or threatened force, or violence or fear of injury, immediate or
future, to his person or property.” (Doc. 7 at 19). The Hobbs Act defines the term
robbery’ to mean “the unlawful taking or obtaining of personal property from the
person or in the presence of another, against his will, by means of actual or
threatened force, or violence, or fear of injury, immediate or future, to his pe rsonor
13 .

property, or property in his custody or possession, or the person or property of a
relative or member of his family or of anyone in his company at the time of the
taking or obtaining.” 18 U.S.C. § 1951(b)(1). If the Hobbs Act robbery can be

match up with the appropriate “crime of violence” term in § 924(c) under the
categorical approach as explained by the Supreme Court in Mathis, 136 S. Ct. 2243.
This is so because the crime of violence is an indivisible element of the § 924(c)
offense. As far as this Court has researched, no jury—certainly not the
Petitioner’s—was ever asked to unanimously decide on whether they concluded a §
‘924(c)“bffen'se was* warranted'Tinder'the'elements-elause-orthe-now-defunct residual
clause, regardless of whatever language was included in the counts of the charging
instrument.
Moreover, the parties agree that when applying the categorical approach a
court presumes “the conviction rested on the least serious acts that could satisfy the
statute,”-L/hited-Staies-U.-Ar.mojir:,84DX3d 90 4, 9Q8 .(7th,Cir.^2016), andthat the
“least serious act” would be fear of injury to property. Rather than recapitulate the

"Petitiongr’snrgumentfurther,—the-Gourt-will-quote-him-directly.---------------- --- -—
Indeed, under the Hobbs Act’s definition of robbery, the fear of injury
need not even be immediate but can be in the future, and the property
need not even belong to the immediate victim as the property can
belong to someone else. See id. This alone prevents Hobbs Act robbery
from qualifying as a crime of violence under § 924(c) s force clause,
because as just explained, that clause requires violent (i.e., strong)
physical force against a person or property. But property can quite
obviously be injured without the use of violent force - or even any force
at all. As a means of compelling a victim to surrender valuable
property against his will, a threat to deface a victim s Picasso painting
with a magic marker pen, to black out lines in rare documents, or to

I
1

14

flush drugs down the toilet is likely to be as or more effective as a
threat to punch the victim in the face. Each involves a clear “threat of
injury and thus each would satisfy the elements of Hobbs Act robbery,
but only the threat to punch the victim in the face involves the use of
violent physical force.lln short, although the threats to property
described above involve physical actions, they do not involve physical
force within the meaning of Johnson v. United States, 559 U.S. 133,
140 (2010) (“physical force” means “violent force” - that is “strong
physical force,” which is “capable of causing physical pain or injury to
another person.”).
(Doc. 3 at 19 (emphasis added)). The Petitioner’s argument has merit. The
Government responds by citing cases for the proposition that the Hobbs Act “fear of
injury’ is equivalent to the threatened use of physical force. See United States v
Duncan, 833 F.3d 751, 755 (7th Cir. 2016); Armour, 840 F.3d at 907. The Court
finds these cases and their holdings are either not applicable, or not persuasive, as
the case may be, for the following two reasons.
First, those Seventh Circuit cases cited by the Government dealt exclusively
with the fear of bodily injury. The plain language of the statute provides that a
Hobbs Act robbery can be accomplished by causing a victim to have “fear of injury”
to property, and “damage” to property can be accomplished without any force
whatsoever. The language of the term “fear of injury” seems broad enough to
encompass instances of the loss of economic value rather than only a physical
destruction brought about through the use of physical force. A case the Government
cites in its opposition brief makes this point clearly. “Hobbs Act robbery under §
1951, however, prohibits the unlawful taking or obtaining of personal property from
the person or in the presence of another, against his will’ by various different
methods. The statute thus does nqt punish behavior that merely results in physical
15

injury.” United States v. Wheeler, No. 15-CR-216, 2016 WL 783412, at *4 (E.D. Wis.
Jan. 6, 2016), report and recommendation adopted. No. 15-CR-216-PP, 2016 WL
799250 (E.D. Wis. Feb. 29, 2016). Mere touching alone is not enough to show
-physical-force . Bu/tean.; -833 F.3d atr-754rThere-are-items-in-jtbis-world.-tha4-p©ssess—
some value simply because no one else has touched them; rare baseball cards devoid
of fingerprints, rare comic books wrapped in thick plastic that have never been
opened, for example. These items would lose value if slightly handled directly in a
loving fashion, let alone in a haphazard or forceful manner calculated to physically
harm the item, and the owners fear the resulting injury—the loss of pecuniary
value-^go they take great measures to protect-these items -from normal wear -and
tear of handling. Given that recognition—that the statute punishes conduct that
does not merely result in physical injury—it is difficult for this Court to understand
how it can conclude “robbery by fear of injury... necessarily involves a threat to use
physical force if the robber’s demands are not met” as the Government argues. See
Wheeler,-2016 WL -783412 at *4=5------Second, the Court disagrees with the Government that the term “fear of
inj ury” that appears in the definition-of-Hobbs-A-Gfe <fr©bbe-ryr--is-the --e<juival6nt-of-the
threatened use of physical force as a matter of statutory interpretation. This Court
reads the statute to mean that a robbery is effectuated when either force, violence
or fear of injury to the person or property of another are utilized to take a
possession. 18 U.S.C. § 1951(b)(1). The statute would not include these three terms
“force”, “violence”, “fear of injury” disjunctively as alternate means of violating the
statute if they all meant the same thing. The Court will spare the reader from
16

i

another table however, the reader should understand that the language of the
statute provides several distinct definitional combinations that explain the different
ways in which one can violate this statute. For example, one could use immediate
actual force, or future threatened force, or future fear of injury, or immediate fear of
injury, all to effectuate an unlawful taking. In short, the statute utilizes these three
terms to bring within its purview a broader range of conduct than it could have
done otherwise if the terms all meant the same thing. The Court believes this
reading of the statute better comports with the familiar canon of statutory
interpretation that a court should not interpret a statute in such a way that renders
any part of it superfluous or otherwise ineffective. See Duncan v. Walker, 533 U.S.
167, 174 (2001).
Very recently, this Court concluded that a crime of violence used in a § 924(c)
conviction was sound under Mathis (and the cases that preceded Mathis) be cause
the underlying crime was ultimately one where the jury was compelled to find that
the defendant had engaged in the use of violent force. See DeSilva v. United States,
No. 4:16-CV-4134, 2016 WL 6495393 (C.D. Ill. Nov. 2, 2016). DeSilva is
distinguishable from this case because there, the nature of the ultimate crime was
such that there had to have been an element of physical force in order for the jury to
find DeSilva guilty of the 924(c) offense. See id. at *6 (underlying offense was
attempted Illinois aggravated battery with a firearm which obviously fit as the use
or_carrying of a firearm while committing a crime of violence). Here, the jury could
have found that the Hobbs Act robbery occurred without finding that physical force
was utilized and therefore, these § 924(c) convictions predicated on the Hobbs Act
17

robberies directly under § 1951 cannot stand, nor can the § 924(c) convictions
predicated on the Hobbs Act robberies indirectly as § 1952 underlying offenses.
Next, the Government relies on the harmless error doctrine as to the § 924(c)

establish that he was harmed by the inclusion of the residual clause in the
instruction to the jury essentially because the facts demonstrate that he used actual
threatened force to effectuate the robberies. (Doc. 7 at 20). Petitioner replies that'
because the crime of violence definition is indivisible, there is no alternative
instruction under which Petitioner could have been convicted and so there is no way
Petitionercanhefoundtonothaveheenharmed.TheGourtagrees'withPetitioner;
On collateral review, the harmless-error doctrine standard to be applied is
whether the error had a “substantial and injurious effect or influence in the jury’s
verdict.” Sorich v. United States, 709 F.3d 670, 674 (7th Cir. 2013) (citing Brecht v.
Abrahmson, 507 U.S. 619, 623 (1993). The Government argues that since we know
withouta doubtPetitioner_usedjreaLthreatened_fQrce_andviolence—pointinga_gun
at the robbery victims to rob stores—the jury would have concluded a crime of
jyiolenceuccurred~regardlessofthepresenee~of-theresidualelau6&,-soFetitioEer-was
not harmed. Haynes used a gun to scare his victims into giving them money; period.
Since it is clear that he used threatened real force to effectuate his robberies, the
/

Court should ignore that the statute he violated punishes conduct that encompasses
more than physical force. This is a common sense approach but the Court believes
this argument ignores the whole point of Mathis and the correct application of the
categorical approach.
18

In Mathis, the criminal engaged in a black and white textbook generic
burglary but the Supreme Court held that he could not be subjected to the ACCA
enhancement under § 924(e) because the statute the burglar was convicted under
had broader elements than the generic burglary statute to which the ACCA applied.
136 S. Ct. at 2250. Thus, the primary lesson one takes away from Mathis is that
when applying the categorical approach, courts have to ignore the actual facts
underlying the offense and apply theoretical boundaries embodied by the elements
of the offense. That is the law as explained in Mathis, 136 S. Ct. at 2248 that
originated in Taylor, 495 U.S. at 599-602; it cannot be circumvented.
Here, Petitioner was found to have used a firearm while engaged in a “crime
of violence” as used in 18 U.S.C. § 1952(a)(2), which at the time meant “an offense
that has as an element the use, attempted use, or threatened use of physical force
against the person or property of another” or a felony “that, by its nature, involves a
substantial risk that physical force against the person or property of another may
be used in the course of committing the offense.” (Doc. 7 at 18 referencing 18 U.S.C.
§ 16; see United States v. Haynes, Given Jury Instructions filed as Exhibit A
attached hereto). Those clauses communicate two different ways an offense can be
deemed a crime of violence, not two separate crimes of violence from which a
factfinder could pick and choose. Because part of the definition was void at the time,
the definition was too broad. The jury was never called upon to specify which clause
of the “crime of violence” definition they were concluding applied. Thus, the error
here is much more like a structural error rather than a mere trial error. See Arizona

19

v. Fulmiiumte, 499 U.S. 279, 307-08 (1991) (discussing difference between
structural and trial errors).
C.

Procedural Default
reneraUyGourts^nust^deeidewviaetlier-a^etitioner-proGedurall^Miefaulted^a----

claim before reaching the merits of the claim. The Court discusses procedural
default here because the substance of the claims and why they are meritorious
sheds light on whether one of the exceptions offered to excuse the procedural default
is legitimate.
The Government asserts that Petitioner procedurally defaulted both his
— “claim-that his ^three-*] -924(e) counts-predieated-'on-his § 4952- offenses wiolat-eJohnson and his claim that his three § 924(c) counts predicated on his § 1951
offenses violate Johnson. Petitioner failed to pursue either claim on direct appeal. A
petitioner may not generally pursue a claim on collateral review that he failed to
raise on direct appeal unless he demonstrates cause and prejudice or that he is
actually innocent. Massaro v. United States, 538 U.S. 500. 504 (2003). The rule is
prudential in nature; it does not originate from any statutory or constitutional
-

souree~.M-.-The -gsa-l-Qf-4he-rule7-which-origdnated4ri-ths-GQntext-Q£-|-2254-petitions,—

i.

j

is to ensure finality of convictions and reservation of scarce federal judicial
resources. See McClesky v. Zant, 499 U.S. 467, 490-91 (1991).
Petitioner primarily argues that he is actually innocent of the § 924(c)
offenses related to his § 1952 convictions. The Court disagrees. The actual innocence
standard enquires into whether “in light of all the evidence, it is more likely than
not that no reasonable juror would have convicted [petitioner].” Bousley v. United
20

States, 523 U.S. 614, 623 (1998). It is clear that Petitioner was convicted of
overbroad statutory definitions, but these convictions were the result of legal
developments not factual deficiencies. There is ample evidence that the Petitioner
committed six crimes of violence under the elements clause of §924(c) in that he
indisputably robbed stores at gunpoint and threatened use of physical force against
several persons by threatening to shoot them if they did not comply with him. The
Court does not have much doubt that had the jurors been given the proper versions
of § 924(c) and § 16(b) in their deliberations, they could, and probably would, have
still found Petitioner guilty. So, the Court cannot find that Petitioner is actually
innocent of the underlying offenses for the purpose of excusing procedural default.3
Petitioner clearly asserts that actual innocence precludes a finding of
procedural default. (Doc. 8 at 4-6). And the Court does not agree. However, the
Court interprets Petitioner’s brief discussion of the evolution of the categorical
approach and the rationale of Johnson (Doc. 8 at 6-7) as an argument that the
novelty of his claims also excuses his procedural default.
A petitioner can establish cause for his procedural default by demonstrating
that there was no reasonable basis in existing law for him to bring the claim on
direct appeal. Reed v. Ross, 468 U.S. 1, 14-15 (1984) (cited in Bousley, 523 U.S. at
622). This is hot the same argument as futility. Bousley, 523 U.S. at 622 (noting
that the petitioner there also raised the issue of futility in addition to novelty).
Petitioner argued his appeal in 1998. This Court was unable to find a single case in

3 No one should construe this discussion to relate to Petitioner’s stand-alone actual
innocence claim that was dismissed. (See supra at 4-5).
21

the legal databases it searched that dealt with voidness of the residual clause before
2000. Thus, this is a far cry from the situation in Bousley, where “the Federal
Reporters were replete with cases involving” the issue there when the petitioner
presented liis direct appeal and the novelty argument was rejected on that basis.
523 U.S. at 622. Moreover, the issues of the residual clause’s “shoddy
draftsmanship” and possible vagueness did not even come before the Supreme
Court until 2007 in James v. United States, 550 U.S. 192, 229 (2007) (Scalia, J.,
dissenting). In short, this is one of those rare cases where the petitioner has
demonstrated cause for his procedural default by demonstrating that there was no
reasoh^elialis'm existi'hglaw"fbThim'tb'bnhg^1he''clmiEroirdifect~^peal'r
A petitioner still needs to establish that he was prejudiced for his procedural
default to be excused. The prejudice that a petitioner must establish in these sorts
of claims was articulated in United States v. Frady, 456 U.S. 152, 168-70 (1982),
which requires a showing of actual and substantial disadvantage. Petitioner’s §
I

-924(e) crimes netted him a total-of4.05 conseGutive-years-so it is obvious -th&t-he
suffered an actual and substantial disadvantage from these convictions. Frady also

i

infected the entire trial that the resulting conviction violates due process.” Id. at
169 (internal quotations and citations omitted). As the Court explained earlier in
rejecting the harmless error argument, utilizing a crime of violence definition that
was overbroad rendered the convictions untenable. That analysis is equally
applicable here.
!

i
22

Although it is easy to say that the jury could have still found Petitioner guilty
of these offenses had they had the proper definition of crime of violence before them,
there is no way to be absolutely sure. Moreover, taking this position would be the
functional equivalent of forcing the petitioner to prove that his jury concluded his
crimes of violence fell under the elements clause of § 924(c) rather than the

now

defunct residual clause. Clearly, he has no feasible way of accomplishing that feat.
Furthermore, the Court has found no basis in the law to impose such an onerous
standard. See In re Chance, 831 F.3d 1335, 1340-41 (11th Cir. 2016) (explaining,
*

albeit in dicta, why it is incorrect to make a § 2255 petitioner prove that he

was

sentenced under the residual clause in order to secure relief on a Johnson claim).
In short, just as the mismatch of elements saved Mathis from an ACCA
sentence, the mismatch of elements brought on by the presence of constitutionally
void clauses in the jury instructions here saves Petitioner from the § 924(c)
convictions. Petitioner is receiving a uniquely rare chance that this Court believes is
required by law. The seriousness of his conduct is not lost upon the Court. Should
he be resentenced in such a manner that he is freed from the custody of the Bureau
of Prisons, the Court sincerely hopes the Petitioner makes good use of this

rare

opportunity and lives a productive life rather than revert to his past criminal
conduct.
D.

Evidentiary Hearing
Rule 8 of the Rules Governing Section 2255 Proceedings for the United States

District Courts requires courts to determine whether

evidentiary hearings are

required in instances where the § 2255 motion has survived screening. The Court
23

^_ i

#
?

does not find that such a hearing is necessary here. However, because both the
parties and the Court referenced the jury instructions given in the underlying
criminal case, United States v. Haynes, No. 96-cr-40034, and such instructions are
Loj

.n(

Clerkjof-Court and attaches them as an exhibit to this Opinion & Order. If the
parties have an objection to the authenticity of the jury instructions, they may file
an appropriate motion.
V.

CONCLUSION

Petitioner, Stacy M. Haynes’s Amended Motion Under 28 U.S.C. § 2255 To
Vaeate,-Set-Aside,-Or Correct Sentence-(Doc.-3)-isXJRANTED~in.part.and „—-----DISMISSED in Part; the Court passes no judgment on Petitioner’s claim that he is
actually innocent of his convictions for violating 18 U.S.C. § 1952. Petitioner’s
sentence in United States v. Haynes, No. 96-cr-40034 (C.D. Ill.) is VACATED for
resentencing. His convictions for violating 18 U.S.C. § 924(c) are VACATED as well.
___ Also before the Court is Petitioner’s original Motion Under 28 U.S.C. § 2255
To Vacate, Set Aside, Or Correct Sentence (Doc. 1). That document is moot because
-the Court accepts theAmended-Motionas properly filed. The_Clerk sh^terminate
it from the electronic docket. This civil action is now TERMINATED.

Entered this 25th day of January, 2017.

s/ Joe B. McDade
JOE BILLY McDADE
United States Senior District Judge
24

I

UNITED STATES OF AMERICA, Plaintiff, v. Ml CHEA. Defendant.
UNITED STATES DISTRICT COURT FOR THE NORTHERN DISTRICT OF CALIFORNIA
2019 U.S. Dist. LEXIS 177651
Case Nos. 98-cr-20005-1 CW,98-cr-40003-2 CW
October 2, 2019, Decided
October 2, 2019, Filed
{2019 U.S. Dist. LEXIS 1}For USA, Plaintiff (4:98-cr-20005-CW-1):
Jeffrey David Nedrow, LEAD ATTORNEY, United States Attorney's Office, San Jose, CA;
Julie Cybelle Reagin, San Francisco, CA; Thomas Anthony Colthurst, U.S. Attorneys Office,
San Francisco, CA.
■ For USA, Plaintiff (4:98-cr-40003-CW-2): Robert David Rees,
LEAD ATTORNEY, Thomas Anthony Colthurst, U.S. Attorneys Office, San Francisco, CA;
Raven Marie Norris, US Attorneys Office, San Francisco, CA.
Judges: CLAUDIA WILKEN, United States District Judge.

Counsel

Opinion
Opinion by:

CLAUDIA WILKEN
Opinion

ORDER GRANTING MOTION TO VACATE, SET ASIDE, OR CORRECT SENTENCE UNDER 28
U.S.C. § 2255
Dkt. No. 340, 98-cr-20005-1
Dkt. No. 453, 98-cr-40003-2.
Rev Chea. who is represented by counsel, moves under 28 U.S.C. § 2255 to vacate, set aside, or
correct his sixty-five-year sentence for convictions under 18 U.S.C. § 924(c) on the ground that the
four counts of Hobbs Act robbery that served as predicates are not categorically "crimes of violence"
under § 924(c)(3). 1 The government opposes the motion. In light of United States v. Davis, 139 S.
Ct. 2319 (2019), which invalidated the residual clause of § 924(c)(3), Chea’s sentence under § 924(c)
can be upheld only if Hobbs Act robbery is categorically a crime of violence under the elements
clause of § 924(c)(3). For the reasons set forth below, the Court concludes that Hobbs Act robbery is
not categorically{2019 U.S. Dist. LEXiS 2} a crime of violence under the elements clause of §
924(c)(3), because the offense can be committed by causing fear of future injury to property, which
does not require "physical force" within the meaning of § 924(c)(3). Accordingly, the Court GRANTS
Chea's motion.
BACKGROUND
I. Procedural history
In 1998, a grand jury returned indictments against Chea in two cases: case number 98-cr-20005, and
case number 98-cr-40003. Juries in two trials found Chea guilty of each of the counts on which he
was indicted. Chea's aggregate sentence in both cases was 880 months, or slightly over

DISHOT

1

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

/

seventy-three years, with sixty-five of those years being for the § 924(c) convictions and sentence at
issue here.
A. Case No. 98-cr-20005
In case number 98-cr-20005, the operative indictment charged Chea with one count of conspiracy to
commit Hobbs Act robbery in violation of 18 U.S.C. § 1951(a) (Count One); three counts of Hobbs
Act robbery in violation of 18 U.S.C. § 1951(a) (Counts Two, Four, and Six); and three counts of
using, carrying, or brandishing a firearm in violation of 18 U.S.C. § 924(c) (Counts Three, Five, and
Seven), with the predicate offenses being the three counts of Hobbs Act robbery in Counts Two,
Four, and Six. Indictment, Case No. 98-cr-20005, Docket No. 113; Docket No. 340 1 ,{2019 U.S.
Dist. LEXIS 3} Ex. B.
After a trial, a jury convicted Chea on all seven counts on April 1, 1999. Verdict, Case No.
98-cr-20005, Docket No. 244; Docket No. 340-1, Ex. C.
District Judge Ronald M. Whyte sentenced Chea to 188 months as to Count One; a combined 188
months as to Counts Two, Four, and Six to run concurrently to the sentence for Count One; five
years as to Count Three; twenty years as to Count Five; and twenty years as to Count Seven, with
the sentences for Counts Three, Five, and Seven to be served consecutively to each other and to
the other sentences. Case No. 98-cr-20005, Docket No. 280. Judge Whyte also sentenced Chea to
two years of supervised release and to pay a special assessment of $350 and restitution, id.
Judge Whyte entered judgment on August 25, 1999. Case No. 98-cr-20005, Docket No. 282.
Chea filed a notice of appeal on August 26, 1999. Case No. 98-cr-20005, Docket No. 283. The Ninth
Circuit affirmed Chea’s conviction but remanded for resentencing. Case No. 98-cr-20005, Docket
Nos. 306, 307; United States v. Chea, 231 F.3d 531, 540 (9th Cir. 2000). The reasons for the
remand for resentencing are not relevant to the issues now before the Court.
On remand, Judge Whyte resentenced Chea on June 13, 2001, to seventy-two months as to
Count{2Q13 U.S. Dist. LEXIS 4} One; a combined seventy-two months as to Counts Two, Four, and
Six, with the term to be served concurrently to the sentence for Count One; five years as to Count
Three; twenty years as to Count Five; and twenty years as to Count Seven, with the terms for Counts
Three, Five, and Seven to be served consecutively to each other and to the other sentences.
Judgment, Case No. 98-cr-20005, Docket No. 317; Docket No. 340-1, Ex. D. Judge Whyte also
sentenced Chea to twenty-four months of supervised release, and to pay restitution. ]d.
This action was reassigned to the undersigned on September 26, 2016. Case No. 98-cr-20005,
Docket No. 346.
B. Case No. 98-cr-40003
In case number 98-cr-40003, Chea was indicted on one count of conspiracy to commit Hobbs Act
robbery in violation of 18 U.S.C. § 1951(a) (Count One); one count of Hobbs Act robbery in violation
of 18 U.S.C. § 1951(a) (Count Two); and one count of using, carrying, or brandishing a firearm in
furtherance of a crime of violence in violation of 18 U.S.C. § 924(c) (Count Three), with the predicate
crime being the Hobbs Act robbery in Count Two. Indictment, Case No. 98-cr-40003, Docket No. 1;
see also Case No. 98-cr-20005, Docket No. 340-1, Ex. F.
After a trial, on April 29, 1999, a jury found Chea{2019 U.S. Dist. LEXIS 5} guilty as to all three
counts. Verdict, Case No. 98-cr-40003, Docket No. 206; see also Case No. 98-cr-20005, Docket No.
340-1, Ex. G (Verdict) & H (Judgment).
The Court sentenced Chea to 100 months as to Counts One and Two, to be served concurrently to

DISHOT

2

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

each other and to the term of imprisonment imposed in Case No. 98-cr-20005; and to twenty years
as to Count Three, to be served consecutively to the prison term for Counts One and Two and to the
term of imprisonment imposed in Case No. 98-cr-20005 for the § 924(c) counts. Judgment, Case No.
98-cr-40003, Docket No. 244; see also Case No. 98-cr-20005, Docket No. 340-1, Ex. H (Judgment).
The Court also sentenced Chea to thirty-six months of supervised release, and to pay restitution, jd.
Chea filed a notice of appeal on September 17, 1999. Case No. 98-cr-40003, Docket No. 245. The
Ninth Circuit affirmed on December 5, 2000. Case No. 98-cr-40003, Docket No. 294.
II. Prior § 2255 motions
On January 4, 2005, Chea moved under § 2255 to vacate his convictions and sentence in Case No.
98-cr-40003, Docket No. 327, on the grounds of ineffective assistance of counsel and that his
convictions and sentence violated his Sixth Amendment rights. The Court denied the motion on June
22, 2005,(2019 U.S. Dist. LEXIS 6} on the grounds that it was untimely and lacked merit. Case No.
98-cr-40003, Docket No. 332.
On April 16, 2012, Chea filed an identical motion under § 2255 in both cases. See Case No.
98-cr-20005, Docket No. 336; Case No. 98-cr-40003, Docket No. 435. The motion was predicated on
the argument that his convictions and resulting sentence violated the Ninth and Tenth Amendments.
The Court dismissed the motion in case number 98-cr-40003 on May 24, 2012, on the ground that it
was a successive § 2255 motion not authorized by the court of appeals. Case No. 98-cr-40003,
Docket No. 438. The Court denied the motion in case number 98-cr-20005 on the grounds that it was
untimely and lacked merit. Case No. 98-cr-20005, Docket No. 338.
III. Present § 2255 motion
On May 11, 2016, Chea filed an identical § 2255 motion in both cases, seeking to vacate his
convictions and sentence under § 924(c). Case number 98-20005, Docket No. 340; Case Number
98-cr-40003, Docket No. 453.2
Section 924(c)(1) "authorizes heightened criminal penalties for using or carrying a firearm 'during
and in relation to,' or possessing a firearm 'in furtherance of,' any federal 'crime of violence or drug
trafficking crime.'" Davis. 139 S. Ct. at 2324 (citing 18 U.S.C. § 924(c)(1)(A)).
"The statute proceeds to define the term 'crime of violence' in two subparts - the{2019 U.S. Dist.
LEXIS 7} first known as the elements clause, and the second as the residual clause." kL
According to § 924(c)(3), a crime of violence is an offense that is a felony and
(A) has as an element the use, attempted use, or threatened use of physical force against the
person or property of another, or
(B) that by its nature, involves a substantial risk that physical force against the person or property
of another may be used in the course of committing the offense.
Id. (citation and internal quotation marks omitted).
On September 19, 2016, the Ninth Circuit authorized Chea's successive § 2255 motion on the
ground that it makes a prima facie showing under Johnson v. United States. 135 S. Ct. 2551 (2015)
(Johnson IQ.
In his initial brief in support of his present § 2255 motion, Chea argues that his § 924(c) conviction
and sentence must be vacated as illegal based on Johnson II. There, the Supreme Court held that
the residual clause of the Armed Career Criminal Act (ACCA), 18 U.S.C. § 924(e)(2)(B)(ii), which
was worded similarly to the residual clause of § 924(c)(3), was unconstitutionally vague. Chea

DISHOT

3

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

77941083

contends that Johnson M's holding also applies to the residual clause of § 924(c)(3) and renders it
unconstitutionally vague. Chea further argues that, post-Johnson II, his § 924(c) sentence can be
upheld only if Hobbs Act robbery is a crime{2019 U.S. Dist. LEXIS 8} of violence under the elements
clause3 of § 924(c)(3), which he contends is not the case, because Hobbs Act robbery does not
involve the requisite degree of physical force required for a conviction under § 924(c)(3).
The government opposes the motion. The government argues that Chea's motion must be denied
because his sentence is valid under the elements clause of § 924(c)(3). The government also argues
that Chea's motion is procedurally barred because he failed to assert his current challenge to his §
924(c) conviction and sentence on direct appeal, and that the motion is untimely, because Chea filed
it more than a year after his § 924(c) conviction and sentence became final.
The Court stayed its determination of Chea's § 2255 motion pending the final disposition of several
Ninth Circuit cases involving issues that could be determinative of it. Docket Nos. 351, 375. The
parties filed supplemental briefs addressing these cases. Docket Nos. 369, 370.
On July 8, 2019, the Court ordered the parties to file supplemental briefs specifically addressing the
impact on Chea's § 2255 motion of Davis. 139 S. Ct. at 2319, and United States v. Blackstone, 903
F.3d 1020 (9th Cir. 2018), cert, denied. 139 S. Ct. 2762 (2019). Docket No. 377.
In Davis, the Supreme Court considered whether the residual clause of § 924(c)(3) is
unconstitutionally vague and on June 24, 2019, held{2019 U.S. Dist. LEXIS 9} that it is. 139 S. Ct. at
2319. The Supreme Court reasoned that the residual clause of § 924(c)(3) is unconstitutional for the
same reasons that it previously held that other, similarly-worded residual clauses in other statutes
defining violent crimes were unconstitutional, namely because it requires judges to employ the
"categorical approach" to determine whether an offense qualifies as a crime of violence. See id. at
2325-27 (discussing similarities between residual clause in § 924(c)(3) and residual clause in the
ACCA, which was held to be unconstitutionally vague in Johnson II. and residual clause in 18 U.S.C.
§ 16(b), which was held to be unconstitutionally vague in Sessions v. Dimaya, 138 S. Ct. 1204
(2018)). Employing the categorical approach in the context of the residual clause of § 924(c)(3) is
constitutionally problematic because it requires judges to disregard how the defendant actually
committed the crime and instead to "imagine the idealized ordinary case of the defendant's crime
and then guess whether a serious potential risk of physical injury to another would attend its
commission." ]d. at 2326 (citations and internal quotation marks omitted). This produces "more
unpredictability and arbitrariness when it comes to specifying unlawful conduct than the Constitution
allows." 14 at 2326 (citations and internal quotation{2019 U.S. Dist. LEXIS 10} marks omitted).
In Blackstone. which was issued before Davis, the Ninth Circuit held that § 2255 motions challenging
§ 924(c) convictions or sentences under the residual clause of § 924(c)(3) cannot be considered to
be timely by virtue of being filed within one year of Johnson II because the "Supreme Court has not
recognized that § 924(c)(3)'s residual clause is void for vagueness in violation of the Fifth
Amendment.” 903 F.3d at 1028. The Supreme Court denied certiorari in Blackstone on June 24,
2019. See 139 S. Ct. at 2762. No party disputes that Davis abrogated the holding in Blackstone that
a § 2255 motion challenging a conviction or sentence under the residual clause of § 924(c)(3) is not
rendered timely by filing it within a year of Johnson 11.4
The parties filed supplemental briefs addressing these cases. See Docket Nos. 378, 379.
LEGAL STANDARD
A prisoner in custody under sentence of a federal court, making a collateral attack against the
validity of his or her conviction or sentence, must do so by way of a motion to vacate, set aside, or
correct the sentence pursuant to 28 U.S.C. § 2255 in the court that imposed the sentence. Tripati v.

DISHOT

4

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Henman. 843 F.2d 1160, 1162 (9th Cir. 1988). Section 2255 was intended to alleviate the burden of
habeas corpus petitions filed by federal prisoners in the district of confinement by providing an
equally broad remedy in the{2Q19 SJ.S. Dist. LEXIS 11} more convenient jurisdiction of the
sentencing court. United States v. Addonizio. 442 U.S. 178, 185 (1979). Under § 2255, a federal
sentencing court may grant relief if it concludes that a prisoner in custody was sentenced in violation
of the Constitution or laws of the United States. United States v. Barron. 172 F.3d 1153, 1157 (9th
Cir. 1999).
ANALYSIS
I. Procedural barriers to the consideration of Chea's motion
A. Timeliness
A motion to vacate, set aside, or correct a sentence under § 2255 must be filed within one year of
the latest of the date on which: (1) the judgment of conviction became final; (2) an impediment to
making a motion created by governmental action was removed, if such action prevented the movant
from making a motion; (3) the right asserted was recognized by the Supreme Court, if the right was
newly recognized by the Supreme Court and made retroactive to cases on collateral review; or (4)
the facts supporting the claim or claims presented could have been discovered through the exercise
of due diligence. 28 U.S.C. § 2255(f). A federal prisoner's judgment becomes final for purposes of
the one-year statute of limitations when "a judgment of conviction has been rendered, the availability
of appeal exhausted, and the time for a petition of certiorari elapsed or a petition for certiorari finally
denied." Griffith v. Kentucky. 479 U.S. 314, 321 n.6 (1987).
Chea contends{2019 U.S. Dist. LEXIS 12} that his § 2255 motion is timely because he filed it on
May 11, 2016, within one year of Johnson II. which was decided on June 26, 2015.
The government argues that the motion is untimely because Chea did not file it within one year of
the date on which his conviction under § 924(c) became final. The government further contends that
Johnson II did not extend the limitations period because Johnson II did not create a new right with
respect to the elements clause of § 924(c)(3), which the government argues is the clause that
governs the determination of Chea's § 2255 motion.
The Court concludes that Chea's § 2255 motion is timely because any issues of timeliness are
resolved in a § 2255 movant's favor in light of Davis where, as here, the movant initially challenged
his § 924(c) sentence based on Johnson II.5
Chea's § 2255 motion has, from the outset, challenged his § 924(c) convictions and sentence based
on the argument that the residual clause of § 924(c)(3) is unconstitutionally vague under Johnson II.6
Chea filed his motion within one year of Johnson II. Davis, which holds that the residual clause of §
924(c)(3) is unconstitutionally vague and cites Johnson II in support of that holding. This confirms
that Chea was timely in filing his § 2255 motion within{2019 U.S. Dist. LEXIS 13} one year of the
date on which Johnson II was decided. Further, the government does not dispute that Davis's holding
with respect to the unconstitutionality of the residual clause of § 924(c)(3) abrogated Blackstone's
holding with respect to the untimeliness of § 2255 motions based on Johnson II. Accordingly, Chea's
motion is not barred as untimely. See 28 U.S.C. § 2255(f)(3) (providing that a § 2255 motion is
timely if it is filed within one year of the date on which a right is newly recognized by the Supreme
Court and is retroactively applicable to cases on collateral review).
B. Procedural default
The government argues that Chea's motion is procedurally barred because he failed to challenge his
§ 924(c) convictions and sentence on direct appeal.

DISHOT

5

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Chea argues that his failure to challenge his § 924(c) convictions and sentence earlier is excused
because his claim that the residual clause of § 924(c)(3) is unconstitutionally vague did not become
viable until after Johnson II was issued. Chea also argues that his procedural default is excused
because he is actually innocent as to his § 924(c) convictions.
As a general rule, "claims not raised on direct appeal may not be raised on collateral review unless
the petitioner{2G19 U.S. Dist. LEXIS 14) shows cause and prejudice," Massaro v. United States. 538
U.S. 500, 504 (2003), or that he is "actually innocent" as to the count of conviction he seeks to
vacate, Vosqien v. Persson, 742 F.3d 1131, 1134 (9th Cir. 2014).
Cause is found when "the factual or legal basis for a claim was not reasonably available to counsel"
at the time a direct appeal was or could have been filed. Murray v. Carrier. 477 U.S. 478, 488 (1986).
Accordingly, the failure to file a direct appeal when the appeal "would have been futile, because a
solid wall of circuit authority" precluded the appeal, does not constitute procedural default. English v.
United States, 42 F.3d 473, 479 (9th Cir. 1994) (internal quotation marks and citations omitted).
Prejudice requires showing that the alleged error "worked to [the movant's] actual and substantial
disadvantage, infecting his entire trial with error of constitutional dimensions.'" United States v.
Braswell. 501 F.3d 1147, 1150 (9th Cir. 2007) (citation omitted). The Supreme Court has not defined
the level of prejudice necessary to overcome procedural default but it has held that the level is
"significantly greater than that necessary under the more vague inquiry suggested by the words 'plain
error.'" Murray. 477 U.S. at 493-94 (citation omitted). To show prejudice under the plain error
standard, a defendant must "show her substantial rights were affected, and to do so, must establish
that the probability of a different result is sufficient to undermine confidence{2019 U.S. Dist. LEXIS
15} in the outcome of the proceeding." United States v. Bonilla-Guizar. 729 F.3d 1179, 1187 (9th Cir.
2013) (internal quotation marks omitted).
Here, Chea has satisfied the cause requirement. Chea's argument that his § 924(c) convictions and
sentence are illegal because the residual clause of § 924(c)(3) is unconstitutionally vague was not
reasonably available to him at the time he was sentenced. Johnson II. which was issued in 2015,
expressly overruled James v. United States, 550 U.S. 192 (2007), and Sykes v. United States, 131
S. Ct. 2267 (2011), which had upheld the analogous residual clause in the ACCA. Accordingly,
Chea's residual-clause challenge would have been futile prior to Johnson II.
Chea also has satisfied the prejudice requirement. Chea has shown that a failure to recognize at his
sentencing that the residual clause of § 924(c)(3) was unconstitutionally vague worked to his actual
and substantial disadvantage, because it resulted in the imposition of a sixty-five-year sentence
under § 924(c). As explained in more detail in the next section, Hobbs Act robbery is not
categorically a crime of violence under the elements clause of § 924(c)(3), so Chea could not have
received a constitutionally valid sentence under the elements clause of § 924(c)(3) at the time he
was sentenced.
Because Chea has shown cause and prejudice, his failure to file a direct appeal challenging his §
924(c) convictions and sentence{2019 U.S. Dist. LEXIS 16} does not preclude his present § 2255
motion.
II. Chea is entitled to relief under 28 U.S.C. § 2255
The Court now turns to the merits of Chea's § 2255 motion. No party disputes that, after Davis,
Chea's sentence under § 924(c), with four counts of Hobbs Act robbery under 18 U.S.C. § 1951(a) as
the predicate offenses7, cannot be upheld based on the now-void residual clause of § 924(c)(3).
Accordingly, the Court now must determine whether Hobbs Act robbery can serve as a predicate

DISHOT

6

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

crime of violence under the elements clause of § 924(c)(3), which is the only clause of § 924(c)(3)
that survived Davis. See Geozos. 870 F.3d at 897 (in the context of the analogous ACCA, 18 U.S.C.
§ 923(e), and Johnson II, holding that when reviewing a § 2255 motion on the merits, a court must
determine whether there are offenses that support a ACCA sentencing enhancement under one of
the clauses that survived Johnson II). If so, then Chea is not entitled to § 2255 relief, |d.
To determine whether Chea's prior convictions for Hobbs Act robbery qualify as predicate crimes of
violence under the elements clause of § 924(c)(3), the Court must employ the categorical approach.
The categorical approach requires a comparison of the elements of the prior offense with the
elements of the definition of the predicate offense that can result in enhanced penalties. See(2Q19
U.S. Dist. LEXIS 17> Descamps v. United States. 570 U.S. 254, 260-61 (2013) (applying categorical
approach to determine whether a prior burglary offense qualifies as a predicate "violent felony" under
the ACCA, 18 U.S.C. § 924(e)(2)(B)). A prior offense categorically qualifies as a predicate offense
only if the statute defining the prior offense "has the same elements" or "defines the crime more
narrowly" than the predicate offense definition. Id. at 261 (citation omitted). By contrast, if the prior
offense "sweeps more broadly" than the predicate offense definition, then the prior offense does not
qualify as a predicate offense. Id Under the correct application of the categorical approach, "a prior
crime would qualify as a predicate offense in all cases or in none." ]d at 268.
"The key" to the categorical approach "is elements, not facts."8 ]d "Sentencing courts may look only
to the statutory definitions - i.e., the elements - of a defendant's prior offenses, and not to the
particular facts underlying those convictions." id (citation and internal quotation marks omitted)
(emphasis added). Where the scope of the prior offense, based on its elements "does not correspond
to" the scope of the predicate offense definition, "the inquiry is over." jd at 265.
Here, the categorical approach requires a comparison of{2019 U.S. Dist. LEXIS 18} the elements of
Hobbs Act robbery with the elements of the definition of "crime of violence” in the elements clause of
§ 924(c)(3). Only if the elements of Hobbs Act robbery are the same, or narrower, than the definition
of "crime of violence" in the elements clause of § 924(c)(3) can the Court conclude that Hobbs Act
robbery is categorically a crime of violence under the elements clause of § 924(c)(3).
Subsection (a) of 18 U.S.C. § 1951 defines various offenses under the Hobbs Act, including robbery
and extortion; it provides that:
Whoever in any way or degree obstructs, delays, or affects commerce or the movement of any
article or commodity in commerce, by robbery or extortion or attempts or conspires so to do, or
commits or threatens physical violence to any person or property in furtherance of a plan or
purpose to do anything in violation of this section shall be fined under this title or imprisoned not
more than twenty years, or both.
Subsection (b)(1) of 18 U.S.C. § 1951 defines "robbery" as follows:
The term 'robbery' means the unlawful taking or obtaining of personal property from the person
or in the presence of another, against his will, by means of actual or threatened force, or
violence, or fear of injury, immediate or future, to his person or property, or property in his
custody{2019 U.S. Dist. LEXIS 19} or possession, or the person or property of a relative or
member of his family or of anyone in his company at the time of the taking or obtaining.
The elements clause of § 924(c)(3) defines a "crime of violence" as an offense that is a felony and
"has as an element the use, attempted use, or threatened use of physical force against the person or
property of another." 18 U.S.C. § 924(c)(3)(A). Section 924(c)(3) does not define the term "physical
force."

DISHOT

7

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

7“ 9^,-

Chea contends that Hobbs Act robbery is not categorically a crime of violence under the elements
clause of § 924(c)(3) because the Hobbs Act robbery statute sweeps more broadly than the elements
clause's "crime of violence" definition. Chea argues that the plain language of § 1951(b)(1) shows
that Hobbs Act robbery can be committed by causing fear of future injury to property, which does not
involve the "physical force" required for it to qualify as a crime of violence under the elements clause
of § 924(c)(3) in light of Johnson v. United States. 559 U.S. 133 (2010) (Johnson I).
In Johnson I. the Supreme Court held that, for a prior offense to qualify as a predicate offense under
the elements clause of the ACCA, 18 U.S.C. § 924(e)(2)(B)(i), which defines a "violent felony" using
statutory language similar to the elements clause of § 923(c)(3), the "physical force" used must be
"violent force - that is,{2019 U.S. Dist. LEXIS 20} force capable of causing physical pain or injury to
another person." Id. at 140 (emphasis added). The ACCA's "violent felony" definition defines the
"physical force" requirement in the context of force applied against "the person of another," whereas
the elements clause of § 924(c)(3) defines "physical force" more broadly, in the context of force
applied against "the person or property of another" (emphasis added).9
Notwithstanding this distinction, the Ninth Circuit has held that "the Johnson I standard" for "physical
force" applies to the elements clause of § 924(c)(3). United States v. Watson. 881 F.3d 782, 784 (9th
Cir. 2018) (citation omitted) ("Although Johnson HI construed the force clause of the Armed Career
Criminal Act, 18 U.S.C. § 924(e)(2)(B)(i), the Johnson Ml standard also applies to the similarly
worded force clause of § 924(c)(3)(A)."). The Ninth Circuit has not yet applied the Johnson I standard
for "physical force" in the context of a prior offense that can be committed by using or threatening to
use force against property. Nonetheless, in the context of offenses committed by actual or
threatened force against property, the only reasonable way to apply the Johnson I standard is to
require likewise that the offense involve "violent" physical force against the property.
Thus, Chea's argument{2019 U.S. Dist. LEXIS 21} that Hobbs Act robbery is not categorically a
crime of violence under the elements clause of § 924(c)(3) depends on two premises: (1) that Hobbs
Act robbery can be committed by causing fear of future injury to property; and (2) that Hobbs Act
robbery by causing fear of future injury to property fails to meet the Johnson I standard that the prior
offense involve actual or threatened physical force that is "violent."
The first premise is supported by the plain language of 18 U.S.C. § 1951(b)(1). That statute, as
described above, defines "robbery" under the Hobbs Act and provides that it can be committed "by
means of actual or threatened force, or violence, or fear of injury, immediate or future, to his person
or property . . ." (emphasis added). Courts have recognized that, based on its plain language, Hobbs
Act robbery can be committed by threats to property. See, e.q.. United States v. O'Connor. 874 F.3d
1147, 1158 (10th Cir. 2017) (holding that "Hobbs Act robbery criminalizes conduct involving threats
to property," and that "Hobbs Act robbery reaches conduct directed at 'property' because the statute
specifically says so") (citing 18 U.S.C. § 1951(b)(1)).
The second premise, that Hobbs Act robbery by causing fear of future injury to property does not
involve the use or threats of violent physical force{2019 U.S. Dist. LEXIS 22} required by Johnson I.
also is supported by the statute's plain language. The phrases "fear of injury," "future," and "property"
are not defined in § 1951(b)(1), so the Court gives them their ordinary meaning. See Leocal v.
Ashcroft. 543 U.S. 1, 9 (2004) ("When interpreting a statute, we must give words their 'ordinary or
natural' meaning.") (citation omitted). Nothing in the ordinary meaning of these phrases suggests that
placing a person in fear that his or her property will suffer future injury requires the use or threatened
use of any physical force, much less violent physical force. Where the property in question is
intangible,10 it can be injured without the use of any physical contact at all; in that context, the use of
violent physical force would be an impossibility. Even tangible property can be injured without using

DISHOT

8

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

violent force. For example, a vintage car can be injured by a mere scratch, and a collector's stamp
can be injured by tearing it gently.
Further, the fact that § 1951 (b)(1) expressly sets forth other, potentially violent alternative means of
accomplishing a Hobbs Act robbery, namely by means of "actual or threatened force, or violence,"
further supports the notion that "fear of injury" does not require the use or threats of{2019 U.S. Dist.
LEXIS 23} violent physical force required by Johnson I, See 18 U.S.C. § 1951(b)(1) (". . . by means
of actual or threatened force, or violence, or fear of injury, immediate or future, to his person or
property . . .") (emphasis added). Interpreting "fear of injury" as requiring the use or threat of violent
physical force would render superfluous the other, potentially violent alternative means of committing
Hobbs Act robbery, specifically, by threatened force or violence. See Ratzlaf v. United States. 510
U.S. 135, 140-41 (1994) ("Judges should hesitate ... to treat statutory terms [as surplusage] in any
setting, and resistance should be heightened when the words describe an element of a criminal
offense."); Duncan v. Walker. 533 U.S. 167, 174 (2001) ("It is our duty to give effect, if possible, to
every clause and word of a statute.") (citations and internal quotation marks omitted). If Congress
had intended "fear of injury" to mean "fear of violence or violent force," it could have said so
expressly. It did not.
Further still, nothing in the plain language of § 1951(b)(1) suggests that the "property" that the victim
fears could be injured needs to be in the victim's physical custody or possession, or even proximity,
at the time the Hobbs Act robbery is committed. This is important, because it preempts any
argument{2019 U.S. Dist. LEXIS 24} that the fear of injury to property necessarily involves a fear of
injury to the victim (or another person) by virtue of the property's proximity to the victim or another
person. See United States v. Camp. 903 F.3d 594, 602 (6th Cir. 2018) (noting that Hobbs Act
robbery can be committed by "threats to property alone" and that such threats "whether immediate or
future-do not necessarily create a danger to the person"). Section 1951(b)(1) lists alternative
scenarios in which a victim can be placed in fear of injury to property, and one of these alternatives
requires only that the "fear of injury" be "to his person or property," without requiring that the property
be in any particular location. See 18 U.S.C. § 1951(b)(1) (". . . fear of injury, immediate or future, to
his person or property, or property in his custody or possession . . .") (emphasis added).
Thus, the plain language of § 1951(b)(1) clearly supports the notion that committing Hobbs Act
robbery by causing fear of future injury to property does not require the use or threatened use of any
physical force, much less the violent physical force required by Johnson I. This form of Hobbs Act
robbery can be committed with threatened de minimis force or no force at all with respect to the
property, and without any actual or threatened physical{2019 U.S. Dist. LEXIS 25} contact with a
person.
No binding authority precludes this conclusion; neither the Supreme Court nor the Ninth Circuit has
addressed the question of whether Hobbs Act robbery by causing fear of future injury to property
satisfies the violent physical force standard of Johnson I.
At least one court of appeals that has considered the applicability of § 924(c)(3) to offenses that
cover injury to property has reached a conclusion similar to the one the Court reaches here. In
United States v. Bowen, the Tenth Circuit considered whether a prior offense of federal witness
retaliationl 1 committed by damage to a victim's property could serve as a predicate crime of
violence under the elements clause of § 924(c)(3). No. 17-1011 ,_F.3d_, 2019 WL 4146452, at *8
(10th Cir. Sept. 3, 2019). The court of appeals concluded that this offense did not meet Johnson I's
standard and therefore was not a crime of violence under the elements clause of § 924(c)(3)
because the offense could be committed without the use of violent physical force, id. at *10. It
reasoned that, "[a]s with force applied against or towards people, not all force applied against

DISHOT

9

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

property is 'inherently violent'.. . there is not inherent violence in, for example, spray-painting
another's car, or 'threatening to throw paint on [another's] house{2019 U.S. Dist. LEXIS 26} . .. or. .
. to pour chocolate syrup on his passport[.]' Nothing about those actions is inherently violent, so the
mere fact that they damage property cannot make them crimes of violence under § 924(c)(3)." ]d at
*10-11 (internal citations omitted).
Based on the foregoing, § 1951(b)(1) sweeps more broadly than the definition of a "crime of
violence" under the elements clause of § 924(c)(3), because Hobbs Act robbery by causing fear of
future injury to property can be accomplished without the use or threats of violent physical force
required by Johnson I. Under the categorical approach, this "disparity" ends the inquiry and warrants
vacating Chea's convictions and sentence under § 924(c)(3). See Mathis v. United States, 136 S. Ct.
2243, 2251 (2016) (holding that "the mismatch of elements saves the defendant from an ACCA
sentence" where the prior offense's elements "cover a greater swath of conduct than the elements of
the relevant ACCA offense"). 12
The government's arguments to the contrary are unavailing. The government interprets the Ninth
Circuit to say in United States v. Mendez. 992 F.2d 1488 (9th Cir. 1993), that Hobbs Act robbery is a
crime of violence under § 924(c)(3)(A). See Brief at 7, Docket No. 7. But that is not what Mendez
holds. In Mendez, the Ninth Circuit considered whether a conspiracy to commit Hobbs Act
robbery{2019 U.S. Dist. LEXIS 27} qualified as a crime of violence under the residual clause of §
924(c)(3) and held that it did. See 992 F.2d at 1492. The Ninth Circuit expressly declined to address
whether conspiracy to commit Hobbs Act robbery qualified as a crime of violence under the elements
clause of § 924(c)(3). ]d. at 1491 ("We do not address whether conspiracy to rob, in violation of §
1951 is a 'crime of violence' under subsection (A) of § 924(c)(3) because we conclude that it is a
"crime of violence" under subsection (B)."). The Ninth Circuit stated in dicta that robbery indisputably
qualifies as a crime of violence. See id. However, it necessarily did so in connection with its analysis
of the residual clause.
The holding and reasoning in Mendez are irrelevant to the resolution of Chea's motion because (1)
the prior offense at issue in Mendez was conspiracy to commit Hobbs Act robbery, which has
different elements than Hobbs Act robbery; and (2) Mendez's holding was limited to the residual
clause of § 924(c)(3) and thus has been abrogated by Davis, which invalidated the residual clause
under § 924(c) as unconstitutionally vague.
The government next argues that the Ninth Circuit held in United States v. Howard. 650 F. App'x
466, 467 (9th Cir. 2016), as amended (June 24, 2016), that Hobbs Act robbery "by fear of injury"
necessarily involves violent physical force. Brief at 12-13,{2019 U.S. Dist. LEXIS 28} Docket No.
348. The Court disagrees.
In Howard, the Ninth Circuit considered whether Hobbs Act robbery "by putting someone in 'fear of
injury'" meets the physical force requirement in the elements clause of § 924(c)(3) in light of Johnson
i and held that it does. ]d at 468. The Court reasoned that "intimidation" as used the federal bank
robbery statute, which "means willfully 'to take, or attempt to take, in such a way that would put an
ordinary, reasonable person in fear of bodily harm,'" is equivalent to "fear of injury" in the Hobbs Act.
id The Ninth Circuit held, "Because bank robbery by 'intimidation' - which is defined as instilling fear
of injury - qualifies as a crime of violence, Hobbs Act robbery by means of 'fear of injury’ also
qualifies as crime of violence." jd
Howard, which is an unpublished memorandum and is not precedent, does not impact the Court's
analysis or conclusion. First, it does not address Hobbs Act robbery by causing fear of future injury to
property: its reasoning and holding are limited to the context of "putting someone" in "fear of bodily
harm." Nothing in the opinion suggests that its reasoning and holding would apply (or even make

DISHOT

10

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

sense) in the context of Hobbs Act robbery{2019 U.S. Dist. LEXIS 29} by causing fear of future
injury to property, which, as discussed above, does not require any threatened or actual bodily
contact, much less bodily harm.13 Second, the Ninth Circuit in Howard expressly declined to
consider whether "Hobbs Act robbery may be accomplished through de minimis use of force,"
because the defendant in that case did not make that argument, jd. at 468 n.1. The Ninth Circuit
recognized that it "has held that crimes that require only a de minimis use of force do not qualify as
crimes of violence," but it took "no position on that issue or the applicability of these precedents to
Hobbs Act robbery." fd. As a result of the Ninth Circuit's express declination to consider whether a
form of Hobbs Act robbery that involves de minimis or no force at all (such as that by causing fear of
future injury to property) can be a "crime of violence," Howard neither precludes, nor is inconsistent
with, the Court's reasoning and conclusion here.
The government also cites Stokelinq v. United States, 139 S. Ct. 544, 550 (2019), to counter Chea's
argument that Hobbs Act robbery does not require the use of violent physical force. Brief at 3-4,
Docket No. 379. But Stokelinq says nothing about the Hobbs Act, and its holding and reasoning are
inapposite.{2019 U.S. Dist. LEXIS 30}
There, the Supreme Court considered whether a Florida robbery statute qualifies as a "violent felony"
under the ACCA's elements clause and concluded that it does. In so holding, the Supreme Court
relied on the fact that ”[a]s originally enacted," the ACCA specifically prescribed an enhanced
sentence for prior convictions for robbery or burglary, id. at 550 (emphasis added), and that a prior
version of the ACCA included a definition of robbery as a predicate offense that "mirrored the
elements of the common-law crime of robbery, which has long required force or violence." Id
Although the current version of the ACCA does not enumerate robbery as a predicate offense, the
Supreme Court held that, because of the ACCA's legislative history and its express inclusion of
robbery as a predicate offense in its prior version, the ACCA's elements clause had to be interpreted
to cover the Florida robbery statute at issue, which the Florida Supreme Court had interpreted as
requiring physical force sufficient to overcome a victim's resistance. Jd at 551, 554.
Stokelinq does not alter the Court's conclusions. First, Stokelinq did not address whether robbery of
the type at issue here, namely robbery by causing fear of injury{2019 U.S. Dist. LEXIS 31} to
property, would meet Johnson I's violent physical force standard. Stokelinq holds that the Florida
robbery statute at issue in that case requires violent force sufficient to meet Johnson I's standard,
because that offense requires physical force sufficient to overcome a victim's resistance, and thus
necessarily involves the use of actual physical force against a person. See id. at 549 (citing Fla. Stat.
§ 812.13(1) (1995)). That Florida statute is unlike the Hobbs Act robbery statute, because it does not
cover threatened future injury to property divorced from actual or threatened physical contact with a
person. As discussed above, Hobbs Act robbery, unlike the Florida robbery statute, can be
accomplished with little or no force directed at property, and without any actual or threatened
physical force directed at a person. Second, the government has presented no evidence that the
legislative history of § 924(c)(3) requires, or even supports, a reading of that statute as covering
Hobbs Act robbery.
The government next argues that "all of the post-Johnson II courts to have addressed the issue have
found that Hobbs Act robbery is a crime of violence under the force clause." Brief at 9-10, Docket
No. 348; Brief at 2, Docket No.{2019 U.S. Dist. LEXIS 32} 379.
None of the opinions that the government cites in support of this argument are binding on this Court,
however. Moreover, the Court finds the reasoning in these opinions to be unpersuasive or irrelevant
for a multitude of reasons, which include the following. First, some of these opinions do not apply the
categorical approach correctly or at all, which renders their conclusions incorrect.14 Second, some of

DISHOT

11

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

these opinions do not apply the Johnson I standard of violent physical force, either at all or in the
context of force against property 15; these opinions, therefore, are inapposite because the Ninth
Circuit has held, without any qualification, that Johnson I's standard applies in the context of §
924(c). See Watson. 881 F.3d at 784.
Third, some of these opinions interpret the phrase "fear of injury" using the canon of noscitur a sociis
and conclude that "fear of injury" "must be like the 'force' or 'violence' described in the clauses
preceding it." See, e.g.. United States v. Garcia-Ortiz. 904 F.3d 102, 107 (1st Cir. 2018). The Court
does not find this reasoning persuasive because Congress chose to use three different terms in the
Hobbs Act robbery statute ("force," "violence,” and "fear of injury") and each must be given meaning,
as discussed{2019 U.S. Dist. LEXIS 33} in more detail above. Additionally, Congress specifically
chose the terms "force" and "injury" without any qualifiers, which suggests that it intended to give
them the broadest possible scope. Congress easily could have worded the Hobbs Act robbery statute
using terms that specifically require the use or threats of violent physical force with respect to each
of the forms of the offense, but it did not.
Fourth, most of the opinions cited by the government do not consider or address the issue raised
here, namely that Hobbs Act robbery can be committed by causing fear of future injury to property;
as such, they are irrelevant. The few that do address this argument reject it as immaterial (1) without
any meaningful analysis16; or (2) on a ground that is inconsistent with the categorical approach17,
namely that the movant did not show prior convictions or instances of Hobbs Act robbery based on
that theory. Requiring such a showing of prior convictions or instances of a particular form of a prior
offense is contrary to the rule that "[sjentencing courts may look only to the statutory definitions - i.e.,
the elements - of a defendant's prior offenses" and not facts, Descamps, 507 U.S. at 261, and that
"the inquiry is{2019 U.S. Dist. LEXIS 34} over" once the court determines that the statute defining
the prior offense covers conduct that is broader than the violent crime definition, id at 265. See also
O'Connor. 874 F.3d at 1154 (rejecting government's argument that defendant was required to
"demonstrate that the government has or would prosecute threats to property as a Hobbs Act
robbery" because the defendant "does not have to make that showing" under the categorical
approach) (internal quotation marks omitted).
Next, the government contends that Hobbs Act robbery "incorporates the common-law definition of
robbery which requires the threat of physical force." Brief at 11, Docket No. 348. But the government
does not explain why the elements of "common-law robbery," which the government does not
describe, would be relevant to the Court's application of the categorical approach here, which
requires, as discussed above, that the Court compare the elements of the predicate offense (i.e.,
Hobbs Act robbery), based on that statute, with the elements of the "crime of violence" definition in §
924(c)(3)(A). Moreover, the authorities that the government cites do not support the proposition that
Hobbs Act robbery and "common-law robbery" have the{2019 U.S. Dist. LEXIS 35} same elements.
See Brief at 11, Docket No. 348 (citing United States v. Walker. 595 F.3d 441,444 (2d Cir. 2010)
("The common law crime of robbery and the various federal statutory offenses of robbery have
substantially the same essential elements.")) (emphasis added). Thus, the Court declines to consult
or rely on "the definition" of an extraneous common-law offense for the purpose of resolving Chea's
motion, because the government has made no showing that doing so would be permissible under the
categorical approach. See Taylor v. United States. 495 U.S. 575, 594 (1990) (declining to "read into"
a statute its "common-law meaning" in light of "the absence of any specific indication that Congress
meant to incorporate the common-law meaning" into that statute).
Lastly, the government argues, without any support, that Hobbs Act robbery involves "inherent"
violence, and that "the Hobbs Act requires that the property be in the person's presence." See Brief
at 11-12, Docket No. 348. As discussed above, the plain language of § 1951(b)(1) is inconsistent with

DISHOT

12

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

these interpretations. The Court declines to read elements into § 1951(b)(1) that simply are not there.
Accordingly, the Court concludes that the government's arguments and authorities are unavailing
and that Hobbs Act robbery is not categorically a crime of violence{2019 U.S. Dist. LEXIS 36} under
the elements clause of § 924(c)(3). 18
CONCLUSION
The Court GRANTS Chea's § 2255 motion. The Court will vacate and set aside Chea's convictions
and sentence for violations of 18 U.S.C. § 924(c) entered in case number 98-cr20005, and case
number 98-cr-40003. Within seven days of the date this order is issued, Chea shall file a brief of no
more than five pages setting forth his position as to the next steps the Court should take. The
government may file a response within seven days thereafter of no more than seven pages. Chea
may file a reply within three days thereafter of no more than two pages.
IT IS SO ORDERED.
Dated: October 2, 2019
Isl Claudia Wilken
CLAUDIA WILKEN
United States District Judge
Footnotes

1
Chea filed identical § 2255 motions in the two cases listed above. This order resolves docket number
340 in case number 98-cr-20005, and docket number 453 in case number 98-cr-40003.
2
In the remainder of this order, any references to docket numbers are to those in case number
98-cr-20005.
3
The elements clause is often referred to as the "force clause."
4
See Miller v. Gammie. 335 F.3d 889, 899 (9th Cir. 2003) ("[CJircuit precedent, authoritative at the
time that it issued, can be effectively overruled by subsequent Supreme Court decisions that 'are
closely on point,' even though those decisions do not expressly overrule the prior circuit precedent"
where the Supreme Court decisions "undercut the theory or reasoning underlying the prior circuit
precedent in such a way that the cases are clearly irreconcilable") (citation omitted).
5
In an unpublished opinion, the Ninth Circuit reached the same conclusion. See United States v.
Carcamo. No. 17-16825, 2019 WL 3302360, at *1 (9th Cir. July 23, 2019) (unpublished mem.) ("In
light of Davis, we also resolve any issues of timeliness in [the movant's] favor" where the § 2255
movant had initially challenged his § 924(c) sentence based on Johnson 111.
6
The government argues that Chea's motion turns on the elements clause and, as such, it is untimely
because neither Johnson II nor Davis created a new right with respect to the elements clause. The

DISHOT

13

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

Court disagrees with this analysis. Because it is not clear whether Chea was sentenced under the
residual clause or the elements clause of § 924(c)(3), the Court, for the purpose of determining
whether Chea's § 2255 motion is procedurally barred, will interpret the motion as a residual-clause
challenge that relies on Johnson II and Davis. See United States v. Geozos. 870 F.3d 890, 896 (9th
Cir. 2017) (where it was not clear if the district court relied on the residual clause of the analogous
ACCA, 18 U.S.C. § 924(e), in determining whether the prior offense qualified as a "violent felony"
under the ACCA, but it may have, construing § 2255 motion as a residual-clause challenge that
"relies on" Johnson II where the defendant argued that his § 2255 motion was not procedurally
barred on the ground that it relied on Johnson II).
7
Section 1951(a) of Title 18 is "divisible" because it contains at least two separate offenses, robbery
and extortion. Where, as here, the statute setting forth the prior offense is divisible, a court may
consult documents in the record, such as "indictments and jury instructions, to determine which
alternative formed the basis of the defendant's prior conviction." Descamps v. United States, 570
U.S. 254, 257 (2013). Here, the record is clear, and the parties do not dispute, that the prior offenses
that served as predicates for Chea's § 924(c) sentence are Hobbs Act robberies in violation of §
1951(a). Therefore, only the elements of Hobbs Act robbery are relevant to the question of whether
Chea's prior offenses are crimes of violence under § 924(c)(3). See United States v. Watson. 881
F.3d 782, 784 (9th Cir. 2018) ("Because § 2113(a) is divisible with respect to [bank robbery and bank
extortion] and [defendants] were convicted of the first offense, we need not decide whether bank
extortion qualifies as a crime of violence.").
8
"'Elements' are the 'constituent parts' of a crime's legal definition-the things the 'prosecution must
prove to sustain a conviction.'. . . Facts, by contrast, are mere real-world things-extraneous to the
crime's legal requirements." Mathis v. United States. 136 S. Ct. 2243, 2248 (2016) (internal citations
omitted).

9
Compare 18 U.S.C. § 924(e)(2)(B)(i)(defining a "violent felony" as "any crime punishable by
imprisonment for a term exceeding one year,” or a qualifying juvenile delinquency, that "has as an
element the use, attempted use, or threatened use of physical force against the person of another")
with 18 U.S.C. § 924(c)(3)(A) (defining a "crime of violence" as an offense that is a felony and "has
as an element the use, attempted use, or threatened use of physical force against the person or
property of another").

10
"[T]he language of the Hobbs Act makes no such distinction between tangible and intangible
property." United States v. Local 560 of Int'l Bhd. of Teamsters. Chauffeurs. Warehousemen, &
Helpers of Am.. 780 F.2d 267, 281 (3d Cir. 1985) (collecting cases).

11
In Bowen, the "parties agree[d] that '[a] defendant may be convicted of witness retaliation if, with
intent to retaliate, he knowingly causes or threatens to cause [(1)] bodily injury to a witness or
knowingly causes or threatens to cause [(2)] damage to a witness's property.” No. 17-1011, 2019 WL
4146452, at *7.

12
Chea also argues that there are other means of committing Hobbs Act robbery that do not involve
using the "violent force" required by Johnson I. such as where it is committed by placing a person "in
fear of injury" "to his person," or "by force" or "threatened force." Docket No. 340 at 10-13. Chea

DISHOT

14

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

7-e^;ik3

N

argues that these forms of Hobbs Act robbery can be committed by using de minimis physical force,
or no physical force at all. Under the categorical approach, "a prior crime would qualify as a
predicate offense in all cases or in none." Descamps, 570 U.S. at 268. Because the Court concludes
that at least one form of Hobbs Act robbery, by causing fear of future injury to property, does not
require the violent physical force required by Johnson I. the Court need not consider whether any
other forms of the offense also do not meet Johnson I's standard.
13
The government’s reliance on other cases that interpret "intimidation" in various federal statutes as
"fear of bodily harm" is unavailing for the same reasons.

14
See, e.g.. In re Fleur. 824 F.3d 1337, 1341 (11th Cir. 2016) (concluding that Hobbs Act robbery is a
crime of violence under the elements clause of § 924(c)(3), not based on the Hobbs Act robbery
statute's elements, but because the description of the Hobbs Act robbery count in the indictment
stated that the defendant in that case committed the robbery "by means of actual and threatened
force, violence, and fear of injury").
15
See, e.g.. United States v. Pena. 161 F. Supp. 3d 268, 273 (S.D.N.Y. 2016) (declining to apply
Johnson I standard and instead "interpreting] the word 'force' in Section 924(c)(3)... to mean
'power, violence, or pressure directed against a person or thing"') (citation omitted); United States v.
Hill. 890 F.3d 51, 58 (2d Cir. 2018) (holding that Johnson I does not "require that a particular
quantum of force be employed or threatened to satisfy its physical force requirement" in the context
of injury to property).
16
See, e.g.. United States v. Buck. 847 F.3d 267, 275 (5th Cir. 2017) (holding that Hobbs Act robbery
by "threatening some future injury to the property of a person who is not present" is not a crime of
violence because other courts "have held that the Hobbs Act definition of robbery describes a crime
of violence under § 924(c)(3)(A)," without more).
17
See, e.g., Garcia-Ortiz. 904 F.3d at 107 ("Garcia points to no actual convictions for Hobbs Act
robbery matching or approximating his theorized scenario . . . Garcia's inability to point to any
convictions for Hobbs Act robbery based upon threats to devalue intangible property convince us that
Hobbs Act robbery, even when based upon a threat of injury to property, requires a threat of the kind
of force described in Johnson ir.T'1: Pena. 161 F. Supp. 3d at 283 ("Pena has not presented any case
law illustrating his hypothetical ways that Hobbs Act robbery could be committed through fear of
injury without forcef.]").
18
Even if some ambiguity existed as to whether the elements clause of § 924(c)(3) covers Hobbs Act
robbery, the Court would resolve any such ambiguity in favor of Chea under the rule of lenity. United
States v. Edlina. 895 F.3d 1153, 1158 (9th Cir. 2018) ("The rule of lenity 'instructs that, where a
statute is ambiguous, courts should not interpret the statute so as to increase the penalty that it
places on the defendant."') (citation omitted).

DISHOT

15

© 2019 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the
restrictions and terms and conditions of the Matthew Bender Master Agreement.

7~oj i r-tj.-T

